No. ______________
_________________________________________________
IN THE SUPREME COURT OF THE UNITED STATES
_____________
YOUNG COUNTY, TEXAS; YOUNG COUNTY SHERIFF’S
DEPARTMENT, PETITIONERS
V.

NICHOLE SANCHEZ; CASY SIMPSON; EDWARD LAROY
SIMPSON, II, INDIVIDUALLY AND AS THE
REPRESENTATIVE OF THE ESTATE OF DIANA LYNN
SIMPSON, RESPONDENTS
_____________
ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
_____________
PETITION FOR A WRIT OF CERTIORARI
S. Cass Weiland
Counsel of Record
Robert A. Hawkins
SQUIRE PATTON BOGGS(US) LLP
2000 McKinney Avenue, Ste.1700
Dallas, Texas 75201
(214) 758-1500
(214) 758-1550 (fax)
cass.weiland@squirepb.com
Counsel for Petitioners

i
QUESTIONS PRESENTED FOR REVIEW
In Monell v. Dep’t of Soc. Servs. and subsequent
precedent,
the
Court
articulated
stringent
requirements for imposing liability on municipalities
under 42 U.S.C. § 1983. Municipal liability cannot be
based on a respondeat superior theory. When
evaluating the constitutionality of prison conditions,
the Court held in Bell v. Wolfish that liability can only
be imposed if the condition amounts to punishment of
the pretrial detainee. The Court also warned that the
judicial branch cannot become enmeshed in the
minutiae of operating jails or prisons which should be
left to local officials who are better equipped to run
their facilities.
In reversing Petitioner’s summary judgment in
this case challenging certain alleged “conditions of
confinement” at the Young County Jail, the Fifth
Circuit discarded Supreme Court principles and
imposed extraordinary burdens on local jails to detect
when detainees, who have denied being suicidal, are in
fact suicidal and prevent them from killing
themselves. Indeed, the Fifth Circuit has become an
outlier in analyzing the constitutionality of prison
conditions with an approach that conflicts with at least
the First, Third, Sixth, Tenth and Eleventh Circuits.
1.

Has the Fifth Circuit violated the dictates of
Monell and its progeny by exposing Young
County to liability based on a theory of
respondeat superior?

2.

Has the Fifth Circuit undertaken the seriously

ii
destructive micro-management of county jails
by ignoring legitimate, non-punitive procedures
in violation of Bell v. Wolfish?

iii
PARTIES TO THE PROCEEDING AND RULE
29.6 STATEMENT
The parties to the proceeding in this Court are
listed in the caption of the case on the title page. No
corporations are involved in this proceeding.
Other proceedings in other courts that are directly
related to this proceeding include:


Sanchez, et al. v. Young Cty., Texas, et al., No.
7:15-cv-00012-O; U.S. District Court for the
Northern District of Texas. Judgment entered
January 22, 2019.



Sanchez, et al. v. Young County, Texas, et al.,
956 F.3d 785 (5th Cir. 2020), U.S. Court of
Appeals for the Fifth Circuit. Judgment entered
July 7, 2020.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED .................................. i
PARTIES TO THE PROCEEDING AND
RULE 29.6 STATEMENT ..................................... iii
TABLE OF CONTENTS ........................................ iv
TABLE OF APPENDICES .................................... vi
TABLE OF AUTHORITIES .................................. vii
PETITION FOR A WRIT OF CERTIORARI ........ 1
OPINIONS AND ORDERS BELOW ..................... 1
JURISDICTION ..................................................... 1
CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED .................................... 2
STATEMENT OF THE CASE ............................... 3
A. Factual Background ..................................... 3
B. Procedural History ....................................... 8
REASONS FOR GRANTING THE PETITION .... 9
I. THE PANEL’S DECISION CONFLICTS WITH
PRINCIPLES GOVERNING MUNICIPAL
LIABILITY FROM MONELL V. DEP’T OF SOC.
SERVS. AND ITS PROGENY.......................... 10

v
A. The panel violated this Court’s standards
governing municipal liability in analyzing
Respondents’ “failure to assess” claim ...... 12
1. The Jail’s alleged “sleep it off” policy ...... 12
2. Completion of Intake Screening Forms... 13
B. The panel also violated this Court’s and the
Fifth Circuit’s precedent in analyzing
Respondents’ “failure to monitor” claim ..... 15
3. The Fifth Circuit’s Analysis Has Created a
Circuit Conflict for Conditions of
Confinement Claims Alleging Inadequate
Medical Care ............................................ 19
II. THE PANEL’S DECISION CONFLICTS WITH
THIS COURT’S TEST IN BELL v. WOLFISH
FOR ASSESSING UNCONSTITUTIONAL
CONDITIONS OF CONFINEMENT............... 24
CONCLUSION ....................................................... 30

vi
TABLE OF APPENDICES
Appendix A: United States Court of Appeals for the
Fifth Circuit Order denying en banc review, dated
June 29, 2020 ....................................................... 1a
Appendix B : United States Court of Appeals for the
Fifth Circuit Judgment affirming in part, and denying
in part, the judgment of the district court, and
remanding the case to the district court, dated April
22, 2020 ................................................................ 3a
Appendix C: United States Court of Appeals for the
Fifth Circuit Opinion reversing in part, and affirming
in part, the district court’s grant of summary judgment
and remand for further proceedings, dated April 22,
2020 ...................................................................... 5a
Appendix D: United States District Court for the
Northern District of Texas Final Judgment granting
Defendants’ motion for summary judgment and
dismissing case with prejudice, dated January 22,
2019 ...................................................................... 28a
Appendix E: United States District Court
Memorandum Opinion and Order granting
Defendants’ motion for summary judgment, dated
January 22, 2019.................................................. 29a

vii

TABLE OF AUTHORITIES
Page(s)
Cases
Estate of Allison v. Wansley,
524 Fed. App’x. 963 (5th Cir. 2013) ....................27
Barrie v. Grand Cnty.,
119 F.3d 862 (10th Cir. 1997) .............................23
Beard v. Banks,
548 U.S. 521 (2006) .............................................30
Bell v. Wolfish,
441 U.S. 520, 99 S. Ct. 1861, 60 L.
Ed. 2d 447 (1979) ......................................... passim
Bell v. Wolfish.
App. ......................................................................24
Bennett v. City of Slidell,
735 F.2d 861 (5th Cir. 1984) (en
banc) (per curiam), cert. denied, 472
U.S. 1016, 105 S. Ct. 3476, 87 L. Ed.
2d 612 (1985)........................................................11
Burnette v. Taylor,
533 F.3d 1325 (11th Cir. 2008) ...........................28
Castro v. Cty. of L.A.,
833 F.3d 1060 (9th Cir. 2016) .............................13

viii
Christie v. Iope,
176 F.3d 1231 (9th Cir. 1999) .............................18
City of Canton v. Harris,
489 U.S. 378, 109 S. Ct. 1197, 103 L.
Ed. 2d 412 (1989) .....................................11, 13, 21
Clouthier v. County of Contra Costa,
591 F.3d 1232 (9th Cir. 2010) .............................19
Culbertson v. Lykos,
790 F.3d 608 (5th Cir. 2015) ...............................18
Danese v. Asman,
875 F.2d 1239,1244 (6th Cir. 1989) ....................28
Duvall v. Dallas Cty., Tex.,
631 F.3d 203 (5th Cir. 2011) ...............................20
Estelle v. Gamble,
429 U.S. 97, 97 S. Ct. 285, 50 L. Ed.
2d 251 (1976)..................................................21, 27
Evans v. City of Marlin, Tex.,
986 F.2d 104 (5th Cir. 1993) ...............................28
Farmer v. Brennan,
511 U.S. 825 (1994) .............................................30
Garza v. City of Donna,
922 F.3d 626 (5th Cir. 2019) .........................29, 30
Gillette v. Delmore,
979 F.2d 1342 (9th Cir. 1992) .............................18

ix
Grayson v. Peed,
195 F.3d 692 (4th Cir. 1999) .........................27, 28
Kingsley v. Hendrikson,
135 S. Ct. 2466 (2015) .........................................11
Kristofek v. Vill. Of Orland Hills,
832 F.3d 785 (7th Cir. 2016) ...............................18
Lewis v. Casey,
518 U.S. 343 (1996) .............................................30
Lytle v. Carl,
382 F.3d 978 (9th Cir. 2004) ...............................18
Milam v. City of San Antonio,
113 F. App’x 622 (5th Cir. 2004) .........................17
Pembaur v. City of Cincinnati,
475 U.S. 469, 106 S. Ct. 1292 (1986) ..................11
Peterson v. City of Fort Worth,
588 F.3d 838 (5th Cir. 2009) .........................17, 19
Sanchez v. Young Cty.,
866 F.3d 274 (5th Cir. 2017), cert
denied, 139 S.Ct.126, 202 L.Ed. 198
(2018) ................................................................8, 20
Sanchez, et al. v. Young Cty., Texas,
956 F.3d 785 (5th Cir. 2020) .................................1
Santiago v. Fenton,
891 F.2d 373 (1st Cir. 1989) ................................18

x
Tittle v. Jefferson Cnty. Comm’n,
10 F.3d 1535 (11th Cir. 1994) .............................23
Vives v. City of N.Y.,
524 F.3d 346 (2d Cir. 2008) .................................18
Whitley v. Albers,
475 U.S. 312 (1986) .............................................30
Whitt v. Stephens Cty.,
529 F.3d 278 (5th Cir. 2008) ...................26, 27, 28
World Wide St. Preachers Fellowship v.
Town of Columbia,
591 F.3d 747 (5th Cir. 2009) ...............................18
Statutes
28 U.S.C. § 1254(1) .....................................................2
28 U.S.C. § 1291 ..........................................................2
42 U.S.C. § 1983 ................................................ passim
Tex. Code Crim. P. 16.22(a)(1)................................6, 7
Other Authorities
37 TEX. ADMIN. CODE § 251.1 ....................................15
37 TEX. ADMIN. CODE § 297.5 ....................................16
U.S. Const., amend. XIV .............................................3

1
PETITION FOR A WRIT OF CERTIORARI
Petitioner Young County, Texas respectfully
petitions this Court for a Writ of Certiorari to review
the judgment and opinion of the United States Court of
Appeals for the Fifth Circuit. See Sanchez, et al. v.
Young Cty., Texas, 956 F.3d 785 (5th Cir. 2020),
attached in the Appendix (“App.”) hereto at 5a—27a.
__________________
OPINIONS AND ORDERS BELOW
The Fifth Circuit’s order denying rehearing en
banc is unreported and is reprinted in the Appendix
hereto at 1a—2a.
The Fifth Circuit’s opinion affirming in part and
reversing in part the district court’s judgment is
reported at 956 F.3d 785 (5th Cir. 2020) and is
reprinted in the Appendix hereto at 5a—27a.
The district court’s opinion granting Petitioner’s
motion for summary judgment is unreported and is
reprinted in the Appendix hereto at 29a—53a.
__________________
JURISDICTION
The Fifth Circuit had appellate jurisdiction
because the district court’s order granting Petitioner’s
motion for summary judgment was a “final decision”

2
within the meaning of 28 U.S.C. § 1291.
The Fifth Circuit denied en banc review on June
29, 2020. Petitioners timely filed this petition for writ
of certiorari. See Order List: 589 U.S. (March 19,
2020). This Court has jurisdiction under 28 U.S.C.
§ 1254(1).
__________________
CONSITUTIONAL AND STATUTORY
PROVISIONS INVOLVED
Respondents brought the underlying actions under
42 U.S.C. § 1983, which states:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within the
jurisdiction thereof to the deprivation of any
rights, privileges, or immunities secured by
the Constitution and laws, shall be liable to
the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a
judicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive relief
shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable. For the purposes of this section,
any Act of Congress applicable exclusively to
the District of Columbia shall be considered to

3
be a statute of the District of Columbia.
Respondents allege that Petitioner violated their
rights under the Fourteenth Amendment to the United
States Constitution, which states in pertinent part:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof,
are citizens of the United States and of the
state wherein they reside. No state shall make
or enforce any law which shall abridge the
privileges or immunities of citizens of the
United States; nor shall any state deprive any
person of life, liberty, or property, without due
process of law; nor deny to any person within
its jurisdiction the equal protection of the
laws.
__________________
STATEMENT OF THE CASE
A.

Factual Background

In May 2013, Ms. Diana Simpson, a registered
nurse, left her job and her husband and drove through
rural Texas with the intent of committing suicide via a
lethal dose of medication. She eventually parked her
car on the side of a road in Graham, Young County,
Texas.
After receiving a report of a missing person,
Graham Police Department officers located Ms.
Simpson in her car just after 5:00 p.m. on Sunday,
May 19, 2013. ROA.766, 771. The officers made

4
contact with her and determined that she exhibited
signs of possible impairment (i.e., slow in giving
answers, speaking very quietly, hard time keeping
eyes open, etc.). ROA.776, 771. Ms. Simpson consented
to a search of her vehicle where officers found several
medications inside, some of which were unopened, and
others which were missing individual capsules.
ROA.760-64, 766-67. An officer questioned Simpson
about the medication, but she gave him conflicting
responses. She initially denied having taken any
medication at all (ROA. 771), but later stated she “had
taken two Benadryl.” (ROA.774). Later still, she told
the officer she had taken all the medication “that was
missing that morning.” ROA.767, 772. When asked,
Ms. Simpson denied that she was trying to hurt
herself. ROA.767, 772.
Because Simpson appeared to be impaired, the
officers summoned medics with the City of Graham to
their location to evaluate her condition. ROA.768, 771,
774. The EMTs arrived and asked Simpson if she was
trying to hurt herself, which she again denied.
ROA.774. She also told the medics that she was not
depressed. ROA.774. They evaluated Simpson and
advised the officers that her “vital signs were fine,” her
blood sugar was normal, and that she was not
dehydrated or suffering from heat stroke. ROA.771.
Ms. Simpson had slightly elevated blood pressure and
a slightly low pulse, but she confirmed that “she
normally has high blood pressure and a low pulse.”
ROA.774. She also told the EMTs she did not want to
be taken to the hospital. ROA.774. In fact, Mrs.
Simpson was adamant that she would not go to the
hospital, despite the fact she reportedly told an intern
accompanying the EMTs on the scene that she was

5
trying to kill herself. ROA.138-39. When asked again
by the EMTs, in the presence of the officers, whether
she was suicidal, Ms. Simpson again denied taking any
pills and denied that she was trying to hurt herself.
ROA.139.
After a one and one-half hour discussion, the
EMTs deemed Ms. Simpson “impaired but not altered.”
ROA.774. She again declined an offer to go to the
hospital; the officers eventually arrested her for public
intoxication and transported her to the Young County
Jail. ROA.767.
Around the same time Ms. Simpson was being
evaluated by the City officers and EMTs, her husband
called dispatch and reported she had threatened to
take her life and that she “had a BOLO report” out on
her. ROA.809-10. The jailer answering Mr. Simpson’s
call knew that EMTs were on the scene and passed that
information along. ROA.811, 815. Mr. Simpson was
not aware that his wife had taken any drugs and he
did not tell anyone at the Jail that she had. ROA.810.
Mrs. Simpson arrived at the Young County Jail at
approximately 6:30 p.m. ROA.766, 771, 818 (¶3), 834
(89:21-23). In accordance with the County’s Mental
Disabilities & Suicide Prevention Plan, Young County
jailer Gaylon Rich interviewed Simpson and completed
the self-report questions portion of her Screening Form
for Suicide and Medical and Mental Impairments.
ROA.767, 785, 788-91, 836 (97:20 – 98:6), 840 (128:225). Simpson did not indicate any behaviors or
conditions indicative of suicide. See ROA.785, 836
(98:7-12), 837 (102:10-12, 104:7-10), 841 (132:4-11).

6
She was also responsive, spoke coherently, and advised
jailer Rich that she didn’t want to hurt herself. See
ROA.767, 818 (¶5), 836 (98:7-12), 842 (133:13 – 134:21,
136:11-17). In response to the screening form
questions, Ms. Simpson indicated she was not
depressed, was not thinking about killing herself, had
never attempted suicide, and had never sought any
mental health treatment. See ROA.785, 837 (102:1012), 841-42 (132:24 – 133:6). After Rich completed the
initial suicide intake screening, she escorted Mrs.
Simpson to a female holding cell. See ROA.767-68, 819
(¶6), 843 (137:21 – 138:7).
In accordance with requirements of the Texas
Commission on Jail Standards, a dispatcher also ran a
Continuity of Care Query (CCQ) at the time of Ms.
Simpson’s arrest.1 ROA.828 (19:11-13), 829 (48:15-25),
839 (122:7-9), 855 (60:25 – 61:7). The CCQ query
resulted in a “possible” match for Simpson. ROA.839
(121:22 – 122:6), 825. At the time, Jail Standards only
required the Young County Jail to notify a magistrate
within 72 hours of any “possible” or “positive” match.2
See Tex. Code Crim. P. 16.22(a)(1).
Mr. Simpson called the County Jail again.
ROA.811,815. He was again told his wife had been
A CCQ query searches a computerized database designed to
detect whether an arrestee has been previously seen at a staterun mental health treatment facility in Texas.
1

2 The

purpose of notifying the magistrate is to allow them to make
determine whether a further assessment is necessary in
connection with bail. See
https://www.tcjs.state.tx.us/docs/Mental_Health_1622_Flowchart.
pdf. (accessed July 10, 2019).

7
evaluated by medical personnel and refused to go to
the hospital. ROA.811. Jailer Mike Burt advised Mr.
Simpson that they would call MHMR if an arrestee
showed any signs of being suicidal, but that MHMR
would not come to see intoxicated inmates until they
were sober. ROA.811,814,858.3
While in the female holding cell, Simpson was
observed approximately every 25 to 30 minutes by
County jailers, and a camera was continuously active
in the holding cell. ROA.819 (¶7), 830 (51:4-10), 833
(82:1-19), 855 (57:13 – 58:12), 859 (89:7-14), 860 (95:915). Hence, the observation of Ms. Simpson included
documented cell checks and also visual observation by
a camera mounted in the holding cell. Id.
Around 1:45 a.m., when another female arrestee
was placed in the holding cell, Ms. Simpson was
observed to be “fine.” See ROA.819 (¶8), 844 (176:22177:17). Simpson was also observed to be “moving
around” and breathing during the periodic cell checks.
See ROA.819 (¶9). At approximately 2:50 a.m., jailer
Rich entered Simpson’s holding cell to wake her in
order to finish the booking process but found her
unresponsive. See ROA.819 (¶10). Jailers summoned
EMS who transported Ms. Simpson to the hospital
where she was subsequently pronounced dead. See
ROA.819 (¶11).
An autopsy was performed and concluded that
Simpson had “highly toxic … near lethal” levels of
There is no evidence in the record disputing this obvious
MHMR policy.
3

8
Diphenhydramine and Diltiazem in her system, as
well as other drugs. App. at 32a. The cause of death
was “mixed drug intoxication.” Id. Prior to Ms.
Simpson’s passing, no other inmate death had occurred
at the Young County Jail. See ROA.874 (121:3-12).
B.

Procedural History

In November 2015, Petitioner moved for summary
judgment on all of Respondents’ Section 1983 claims,
which alleged that Petitioner had deprived Ms.
Simpson of constitutionally adequate medical care.
ROA.59-153. The district court granted the motion
after concluding that Respondents’ claims were based
on an “episodic acts or omissions” theory of liability.
ROA.547-70. The Fifth Circuit affirmed the district
court’s judgment but remanded the case for the district
court to consider Respondents’ claim based on a
“conditions of confinement” theory. Sanchez v. Young
Cty., 866 F.3d 274 (5th Cir. 2017), cert denied, 139
S.Ct.126, 202 L.Ed. 198 (2018)(“Sanchez I”).
Meanwhile, this Court denied review of the Fifth
Circuit’s judgment dismissing the episodic acts or
omissions claim. 139 S.Ct. 126, 202 L.Ed. 198 (2018).
On remand, the district court again granted
Petitioner’s motion for summary judgment on the
conditions of confinement claim. App. at 29a—53a.
Respondents appealed, and the Fifth Circuit reversed
in part and affirmed in part. App. at 5a—27a. The
Court of Appeals concluded that Respondents raised
material fact disputes as to whether Petitioner
maintained de facto policies of failing to monitor and
failing to assess pretrial detainees’ medical needs, and

9
whether these alleged policies, or “conditions of
confinement,” caused Simpson to be denied adequate
medical care. App. at 27a. The Fifth Circuit affirmed
the district court’s decision that Respondents’ failure to
train claim was barred. App. at 27a. Petitioner moved
for rehearing en banc which was denied. App. at 1a—
2a.
REASONS FOR GRANTING THE PETITION
This appeal involves questions of exceptional
importance because the Fifth Circuit’s decision
conflicts with decisions of this Court and other
appellate courts across the country in evaluating the
constitutionality of prison conditions and imposing
municipal liability under 42 U.S.C. § 1983.
More specifically, the panel’s analysis violates
principles announced by this Court beginning with
Monell v. Dep’t of Soc. Servs. by expanding potential
liability of governmental entities based merely on a
theory of respondeat superior.
The Fifth Circuit has become an outlier in
analyzing the constitutionality of prison conditions
and the correct standards to be applied. Contrary to
other circuit courts, the panel erred by dispensing with
the requirement to show a municipal custom or policy
was implemented with deliberate indifference to a
detainee’s needs. This circuit split alone justifies this
Court’s review.
Finally, the panel’s decision also conflicts with this
Court’s instructions in Bell v. Wolfish for assessing the

10
constitutionality of pretrial conditions of confinement
by ignoring reasonable, non-punitive objectives in
county jail administration. The panel imposes
unprecedented burdens on municipalities in handling
intoxicated detainees and usurps the discretionary
authority that should be left to local, better-equipped
officials on matters of jail management.
I.

THE PANEL’S DECISION CONFLICTS
WITH PRINCIPLES GOVERNING
MUNICIPAL LIABILITY FROM MONELL
v. DEP’T OF SOC. SERVS. AND ITS
PROGENY

This Court held in Monell v. Dep’t of Soc. Servs.
that municipalities are “persons” which may be liable
for constitutional violations under 42 U.S.C. § 1983.
436 U.S. 658, 690 (1978). Municipal liability, however,
cannot be predicated on a theory of respondeat
superior. Id. at 691. A governmental entity can only be
liable for injuries inflicted pursuant to a government
“policy or custom.” Id. at 694. A plaintiff seeking to
impose liability on a governmental entity, like
Petitioner, must show: (1) a constitutional violation
occurred; and (2) a municipal policy was the moving
force behind the violation. See id.
After Monell, this Court outlined some of the
contours for municipal liability in Oklahoma City v.
Tuttle. There, the Court held that municipal liability
under Monell cannot be established, or even inferred,
absent of showing of wrongdoing by the municipal
“decisionmakers.” 471 U.S. 808, 821 (1985). Municipal
liability based on alleged misconduct of a low-level

11
employee, who has no authority to make government
policy, is forbidden as respondeat superior liability. Id.
at 823-24. “[M]unicipal liability under § 1983 attaches
where – and only where – a deliberate choice to follow
a course of action is made from among various
alternatives by the official or officials responsible for
establishing final policy with respect to the subject
matter in question.” Pembaur v. City of Cincinnati, 475
U.S. 469, 481-84, 106 S. Ct. 1292, 1299-300 (1986).
Moreover, a plaintiff must demonstrate that the
policy or custom of a municipality “reflects deliberate
indifference to the constitutional rights of its
inhabitants.” City of Canton v. Harris, 489 U.S. 378,
392, 109 S. Ct. 1197, 103 L. Ed. 2d 412 (1989). Hence,
the relevant policymaker must have actual or
constructive knowledge of the custom or policy giving
rise to Monell liability. See Bennett v. City of Slidell,
735 F.2d 861, 862 (5th Cir. 1984) (en banc) (per
curiam), cert. denied, 472 U.S. 1016, 105 S. Ct. 3476,
87 L. Ed. 2d 612 (1985); see generally Kingsley v.
Hendrikson, 135 S. Ct. 2466, 2472 (2015)(liability for
negligently inflicted harm is categorically beneath the
threshold of constitutional due process).
Here, the panel separated Respondents’
“conditions of confinement” claim into three categories:
(1) the failure to assess the medical needs of detainees;
(2) the failure to adequately monitor detainees; and (3)
the failure to train jail employees. App. at 16a. The
panel further subdivided the failure to assess
allegations into two distinct inquiries: (i) whether
Petitioner maintained a de facto policy of placing
intoxicated detainees into a holding cell to “sleep off”

12
their intoxication before completing the book-in
process; and (ii) whether a failure to complete suicide
screening and medical intake forms of detainees upon
arrival caused a violation of Ms. Simpson’s rights. App.
at 21a—23a.
A. The panel violated this Court’s
standards governing municipal liability
in analyzing Respondents’ “failure to
assess” claim.
1. The Jail’s alleged “sleep it off” policy.
The panel concluded that “consistent jailer
testimony” raised a fact dispute about whether the jail
left intoxicated detainees in a holding cell to “sleep off”
their intoxication before finishing the book-in process.
App. at 21a—22a. None of the testimony, however,
came from a municipal policymaker.4 Additionally, the
jailer testimony in the record falls far short of showing
a policy or custom of depositing all intoxicated
detainees into a holding cell to “sleep it off.” The jail
administrator never testified about detainees “sleeping
off” intoxication. See id. Another jailer simply testified
that he told Mr. Simpson in a phone call that his wife
needed to “sleep it off.” App. at 22a. What’s left is
testimony from one jailer that sometimes, if a detainee
is “very very drunk,” he or she would be put into a
holding cell until they become coherent enough to
complete the book-in process. Id.; ROA.1218, p.222.
4 The

relevant policymaker is the now deceased Young County
Sheriff (Bryan Walls). See App. at 19a (“…no one disputes that
the County sheriff is the relevant policymaker…”)

13
The panel violated this Court’s pronouncements in
Monell, Tuttle and other cases by impermissibly
inferring the existence of a “sleep it off” policy based on
the testimony of a single, non-policymaking official.
This potentially exposes the County to liability based
on a respondeat superior theory, which this Court has
rejected. See Tuttle, 471 U.S. at 823-24.
Equally important, there is no evidence that any
alleged “sleep it off” policy was approved,
implemented, encouraged, or even known to the former
Sheriff. Nor is there evidence that such a policy was
enacted with deliberate indifference to any detainee’s
medical needs. See City of Canton, 489 U.S. at 392. “It
is not sufficient for a plaintiff to identify a custom or
policy, attributable to the municipality, that caused
his injury. A plaintiff must also demonstrate that the
custom or policy was adhered to with deliberate
indifference to the constitutional rights of the [the
jail’s] inhabitants.” Castro v. Cty. of L.A., 833 F.3d
1060, 1073-76 (9th Cir. 2016)(quoting City of Canton,
489 U.S. at 392)(internal quotations omitted). In fact,
prior to Ms. Simpson’s death, no other detainee or
inmate died in Young County’s custody as a result of
the Jail’s system of providing medical care or
otherwise. See ROA.874 (121:3-12). This fact alone
negates any notion that the alleged “sleep it off” policy
reflects deliberate indifference to the detainee’s needs.
2. Completion of Intake Screening Forms.
The panel also erred in assessing whether the
County’s alleged policy of failing to complete suicide

14
and medical intake forms at a detainee’s booking
caused a violation of Ms. Simpson’s constitutional
rights. The panel concluded that this alleged policy,
when viewed in conjunction with other alleged policies,
could have a “mutually enforcing effect” of depriving
Ms. Simpson of medical care, ignoring the fact that the
same jailers who booked in the prisoner were still on
duty. App. at 23a—24a.
The panel recites other alleged jail policies that
Respondents claimed to exist. Id. What’s missing,
however, is any evidentiary support that the policies
meet the threshold to potentially subject Petitioner to
liability under Monell. Similar to its analysis of the
jail’s alleged “sleep it off” policy, the panel erroneously
accepts the notion that such policies might have
existed by virtue of a jailer’s testimony who has no
policymaking function. See App. at 25a (discussing
alleged policies based on testimony of single,
individual jailers). This Court prohibits drawing such
inferences as they only give rise to respondeat superior
liability.
Furthermore, the panel cites this Court’s decision
in Wilson v. Seiter for the proposition that “conditions
of confinement may be constitutionally inadequate, if,
when viewed in combination, they have a ‘mutually
enforcing effect that produces the deprivation of a
single, identifiable human need.’” App. at 23a—24a.
Yet, this Court made the statement in the context of
petitioner’s argument that all conditions of
confinement – even those that are disputed to exist –
must be “considered as part of the overall conditions
challenged.” Wilson, 501 U.S. 294, 304 (1991). The

15
Court rejected that argument recognizing that only
existing conditions that might combine to deprive a
detainee of a basic human need are relevant. Here, the
panel impermissibly speculated about the mutually
enforcing effect of municipal customs or policies that
fall short of the requirements in Monell and its
progeny. The error subjects the County and counties
across the Fifth Circuit to potential liability absent
any Supreme Court precedent.
B. The panel also violated this Court’s and
the Fifth Circuit’s precedent in
analyzing Respondents’ “failure to
monitor” claim.
In reversing the County’s summary judgment, the
panel ignored the fact that no detainee had previously
died at the Young County Jail but relied in part on the
results of routine, annual inspections of the Jail by the
Texas Commission on Jail Standards (“TCJS”), before
and after Ms. Simpson’s death. App. at 18a. According
to the panel, these reports showed that jailers failed to
adequately monitor other detainees. Id. The panel also
opined that this “prior misconduct” was effectively
ratified by the former Sheriff as policymaker because,
after Ms. Simpson’s death, he never punished any
jailers or took remedial action to correct deficiencies.
Id.
The State of Texas created the TCJS to help
improve the operation of jails across the State. See 37
TEX. ADMIN. CODE § 251.1. TCJS inspections typically
occur frequently and randomly. When deficiencies in
the jail’s operation are identified, they must be

16
corrected before the jail will be deemed compliant. See
37 TEX. ADMIN. CODE § 297.5. Under TCJS protocol,
many deficiencies are, and must be, corrected “on site”
before the inspector leaves the premises.
Like other rules and regulations, the standards
enforced by the TCJS do not establish constitutional
minima for adequate medical care under the Due
Process Clause. Indeed, this Court has observed that
federal or state rules and regulations should not be
used as a measuring stick to judge the
constitutionality of prison conditions. See Bell v.
Wolfish, 441 U.S. 520, 544 n.27, 99 S. Ct. 1861, 60 L.
Ed. 2d 447 (1979) (“For this same reason, the draft
recommendations of the Federal Corrections Policy
Task Force of the Department of Justice regarding
conditions of confinement for pretrial detainees are not
determinative of the requirements of the
Constitution.”).
Here, the panel erroneously concluded that the
TCJS reports showed systematic problems with the
County’s observation of detainees although, in fact, the
TCJS found “no deficiencies” with the jail’s operations,
or any such deficiencies were corrected “on site” as
required. ROA.1306, 1308, 1317, 1320, 1322, 1327,
1329, 1331, 1333. More importantly, however, the
panel’s fixation on the inspections and the former
Sheriff’s supposed post-hoc ratification of the “prior
misconduct” conflicts with this Court’s and the Fifth
Circuit’s precedent governing municipal liability, thus
warranting the Court’s review.

17
In St. Louis v. Praprotnik, the Court stated, “[i]f
the authorized policymakers approve a subordinate’s
decision and the basis for it, their ratification would be
chargeable to the municipality because their decision
is final.” 485 U.S. 112, 127 (1988) (emphasis added).
Following the Court’s lead, the Fifth Circuit has
observed:
It is important to recognize that the
ratification theory, in whatever context it
arises, is necessarily cabined in several
ways. Praprotnik itself recognized that
policymakers who “simply go[] along with” a
subordinate’s decision do not thereby vest
final policymaking authority in the
subordinate, nor does a “mere failure to
investigate the basis of a subordinate’s
discretionary decisions” amount to such a
delegation.
[citation
omitted].
Such
limitations on municipal liability are
necessary to prevent the ratification theory
from becoming a theory of respondeat
superior, which theory Monell does not
countenance. See id. at 126 (“If the mere
exercise of discretion by an employee could
give rise to a constitutional violation, the
result would be indistinguishable from
respondeat superior liability.”).
Milam v. City of San Antonio, 113 F. App’x 622, 626-27
(5th Cir. 2004). Given these constraints, the Fifth
Circuit has limited the ratification theory to “extreme
factual situations” and its application is “seldom, if
ever, found by this court.” Peterson v. City of Fort

18
Worth, 588 F.3d 838, 848 n.2 (5th Cir. 2009).
One thing is clear: this Court and circuit courts
have uniformly held that ratification can support
municipal liability only when the final policymaker
approves the subordinate’s conduct and the reasons for
it. Praprotnik, 485 U.S. at 127; Culbertson v. Lykos,
790 F.3d 608, 621 (5th Cir. 2015)(“If a final
policymaker approves a subordinate’s recommendation
and also the subordinate’s reasoning, that approval is
considered
ratification
chargeable
to
the
municipality.”); Gillette v. Delmore, 979 F.2d 1342,
1347-48 (9th Cir. 1992)(“Likewise, Prapotnik requires
that a policymaker approve a subordinate’s decision
and the basis for it before the policymaker will be
deemed to have ratified the subordinate’s discretionary
decision.”); Lytle v. Carl, 382 F.3d 978, 988 n.2 (9th
Cir. 2004)(“Accordingly, ratification requires both
knowledge of the alleged constitutional violation, and
proof that the policymaker specifically approved of the
subordinate’s act.”); Kristofek v. Vill. Of Orland Hills,
832 F.3d 785, 800 (7th Cir. 2016); Vives v. City of N.Y.,
524 F.3d 346, 356 n.9 (2d Cir. 2008).
Ratification cannot give rise to Monell liability
when a policymaker merely:
 defends a subordinate’s actions (World Wide St.
Preachers Fellowship v. Town of Columbia, 591
F.3d 747, 755 (5th Cir. 2009);
 knows of or refuses to overrule a subordinate
(Christie v. Iope, 176 F.3d 1231, 1239 (9th Cir.
1999);
 fails to discipline a subordinate (Santiago v.

19
Fenton, 891 F.2d 373, 382 (1st Cir. 1989),
Clouthier v. County of Contra Costa, 591 F.3d
1232, 1253 (9th Cir. 2010);
 determines that an official complied with
department policies (Peterson, 588 F.3d at 848);
or
 fails to investigate a subordinate’s conduct
(Peterson, 588 F.3d at 848 n.2).
Here, the panel based its ratification theory solely
on the allegation that the former Sheriff knew about
the TCJS reports and the details of Ms. Simpson’s
death, yet failed to punish jailers or take remedial
action to address alleged inadequacies. App. at 19a. As
shown above, this rationale directly conflicts with
Prapotnik and every circuit court across the country,
including the Fifth Circuit.
Under the panel’s decision, municipalities could
find themselves liable simply by turning over a jail
death investigation to an outside source – like the
Sheriff did here. The mere lack of disciplinary action
following the investigation cannot give rise to Monell
liability, especially if disciplinary action was not called
for. Hence, the panel’s decision dramatically expands
the reach of ratification to potentially support
municipal liability in violation of Monell. For this
reason, the Court should grant this petition.
3. The Fifth Circuit’s Analysis Has Created
a Circuit Conflict for Conditions of
Confinement Claims Alleging Inadequate
Medical Care

20
Other circuit courts have a uniform approach to
reviewing constitutional claims for inadequate medical
care by pretrial detainees. Indeed, the Fifth Circuit
appears to be the only circuit court in the country to
distinguish such claims between two theories:
“episodic acts or omissions” and “conditions of
confinement.” In Sanchez I, the Fifth Circuit rejected
Respondents’ episodic acts or omissions claims because
Respondents failed to create a genuine fact dispute as
to whether jail officials were deliberately indifferent to
Ms. Simpson’s medical needs. Sanchez I, 866 F.3d 274
(5th Cir. 2017. By contrast, when the case returned to
the Court of Appeals, this panel jettisoned any inquiry
into deliberate indifference on the conditions of
confinement claim. Without explicitly saying so, the
panel appears to rely on Duvall v. Dallas Cty., Tex.,
631 F.3d 203 (5th Cir. 2011), in which the Fifth Circuit
pointedly noted:
In Shepherd, a recent appeal involving
“conditions of confinement,” we did not
require the plaintiff to make a showing of
deliberate indifference under Monell,
presumably because it is unnecessary in
“conditions of confinement” cases.
Id. at 209, n.19; see App. at 16a. Hence, the panel’s
failure to view the conditions of confinement claim
through the lens of deliberate indifference places the
Fifth Circuit in conflict with the First, Third, Sixth,
Tenth and Eleventh Circuits, all of which employ a
deliberate indifference inquiry in analyzing municipal
liability for unconstitutional prison conditions. This
divergent approach between circuit courts in cases

21
involving substantially similar facts warrants this
Court’s review.
In Manarite v. City of Springfield, a pretrial
detainee, who was highly intoxicated but did not
exhibit any suicidal tendencies, committed suicide
after jail officials failed to take his shoelaces. 957 F.2d
953, 954-55 (1st Cir. 1992). The First Circuit, applying
the standards set forth by this Court in Wilson v.
Seiter, Canton v. Harris, and Estelle v. Gamble,
affirmed summary judgment on plaintiffs’ claims
against the police chief and the City after concluding
there was insufficient evidence of deliberate
indifference to the detainee’s medical needs. Id. at 95760.
In Colburn v. Upper Darby Township, the arrestee
was detained for public intoxication and later
committed suicide by shooting herself with a handgun.
946 F.2d 1017, 1020-21 (3d Cir. 1991). One of the
claims asserted by plaintiffs challenged the township’s
alleged policy “regarding the treatment of intoxicated
arrestees.” Id. at 1028. Relying on City of Canton, the
Third Circuit rejected Monell liability observing:
We know of no authority suggesting that a
failure to hold intoxicated detainees, a class
constituting two-thirds of the detainee
population, in an institution devoted
specifically to detoxification or to subject
them
to
around-the-clock
personal
surveillance
constitutes
deliberate
indifference to a serious need of such
detainees.

22
Id. at 1029. Notably, the Third Circuit concluded:
We must remain mindful of Colburn I’s
admonition
that
we
cannot
place
municipalities and their custodial officers
and employees ‘in the position of
guaranteeing that inmates will not commit
suicide.’
Id. at 1030-31.
The Sixth Circuit similarly applies a deliberate
indifference standard to conditions of confinement
cases. In Schack v. City of Taylor, the detainee was
arrested for disorderly intoxication and placed into a
detox cell to “sober[] up a little bit” before completing
the booking process. 177 Fed. App’x 469, 470 (6th Cir.
2006). Shortly after being placed into the cell, the
detainee stood up from a bench, fell over hitting his
head on a concrete wall, and later died. Id. The Sixth
Circuit reversed the district court’s denial of summary
judgment holding that even if the plaintiff could show
the subjective component of deliberate indifference, he
could not satisfy the objective component because “[i]n
conditions-of-confinement challenges like this one, a
claimant must establish an excessive risk” of injury—
one that violates contemporary standards of decency.
Id. at 472 (citing Farmer v. Brennan, 511 U.S. 825, 837
(1994)). The court noted: “[p]lacing an intoxicated
man, even a highly intoxicated man, in a detoxification
cell while awaiting booking does not violate
contemporary standards of decency.” Id. (citation
omitted).

23
The Tenth and Eleventh Circuits also require a
showing of deliberate indifference in conditions of
confinement cases. See e.g., Barrie v. Grand Cnty., 119
F.3d 862 (10th Cir. 1997); Tittle v. Jefferson Cnty.
Comm’n, 10 F.3d 1535 (11th Cir. 1994). In Tittle, two
detainees arrested for robbery and violating parole,
respectively, both committed suicide by hanging
themselves with bed sheets in their cells. 10 F.3d at
1536-37. Both detainees were screened for suicidal
tendencies, and both denied ever receiving psychiatric
care, denied ever attempting suicide, denied any
illness or injury, and denied any substance abuse. Id.
One of the detainees (Harrell), however, had
previously attempted suicide and had been under
psychiatric care. Id. at 1538. In addition, a childhood
friend of that detainee called the Jefferson County Jail
and told a jailer about the previous suicide attempt
and “that the deputies should watch him carefully
because Harrell might again try to kill himself.” Id.
Finally, jail records indicated that, prior to Harrell’s
suicide, there had been 27 attempted suicides in the
jail and two successful suicides. Id.
The representatives of the detainees’ estates sued
Jefferson County alleging Section 1983 claims based
on the county’s policies of inadequately screening
detainees for suicidal tendencies, inadequately
supervising detainees, and maintaining a defective
jail. Id. at 1539-40. The Eleventh Circuit affirmed a
summary judgment for the County: there could be no
Monell liability without showing the alleged policies
demonstrated deliberate indifference to the detainees’
rights. Id.

24
Unlike these other circuit courts, the panel never
utters the term deliberate indifference. These
contrasting approaches present an untenable circuit
conflict for claims challenging unconstitutional prison
conditions. In fact, the Fifth Circuit has become an
outlier. More importantly, its conflating of concepts
between episodic acts or omissions and conditions of
confinement has led to a misapplication of this Court’s
principles in Monell, which is likely to continue
without this Court’s intervention.
II.

THE PANEL’S DECISION CONFLICTS
WITH THIS COURT’S TEST IN BELL V.
WOLFISH FOR ASSESSING
UNCONSTITUTIONAL CONDITIONS OF
CONFINEMENT

The panel recites the test for unconstitutional
conditions of confinement which this Court set forth in
Bell v. Wolfish. App. at 15a—16a. The panel, however,
limits its analysis to the first element only: whether
an identifiable condition existed at the Young County
Jail. Nowhere does the panel address the second
requirement to impose liability on the County:
whether the condition is reasonably related to a
legitimate government objective. By failing to even
acknowledge, much less analyze, the reasonable, nonpunitive objectives in county jail administration, the
panel’s decision strays from Bell v. Wolfish and
potentially opens the floodgates for meritless
conditions of confinement claims.

25
The pivotal issue in a conditions of confinement
case is whether the condition amounts to punishment.
See Bell, 441 U.S. at 535. Due process of law prohibits
pretrial detainees from being punished prior to
adjudication of guilt. Id. Here, Respondents adduced
no evidence that the County intended to punish any
detainees, including Ms. Simpson.
Absent a showing of intent to punish, a court must
determine if an established condition is reasonably
related to a legitimate, non-punitive objective. Id. at
539. If the condition is arbitrary or purposeless, then
and only then, intent to punish can be inferred. Id.
But, these constitutional questions must be answered
with due regard to the fact that judges and courts
should not become involved in “how best to operate a
detention facility.” Id. This Court stressed:
In determining whether restrictions or
conditions are reasonably related to the
Government’s interest in maintaining
security and order and operating the
institution in a manageable fashion, courts
must heed our warning that ‘[such]
considerations are peculiarly with the
province and professional expertise of
corrections officials, and, in the absence of
substantial evidence in the record to indicate
that the officials have exaggerated their
response to these considerations, courts
should ordinarily defer to their expert
judgment in such matters.

26
Bell, 441 U.S. at 540 n.23 (quoting Pell v. Procunier,
417 U.S. 817 , 827 (1974) (internal quotations
included).
A prison or jail facility’s legitimate, non-punitive
objectives exist in various forms. These include the
need to maintain order and security and to effectively
manage the jail facility. Id. at 540. Prior to this case,
the Fifth Circuit also recognized a jail official’s
legitimate interest in relying on information provided
by a detainee in assessing their medical or mental
health needs. See Whitt v. Stephens Cty., 529 F.3d 278,
284 (5th Cir. 2008).
Notwithstanding the Court’s warnings, the panel
erroneously proceeds to “second-guess” the actions of
Young County jail officials and wades into the
minutiae of jail administration without regard to any
legitimate objectives that might exist. See id. at 54445. For example, the panel’s discussion of the jail’s
alleged detox protocol of allowing detainees to “sleep
off” intoxication ignores the realities of jail operations
across the country. The only jailer who referred to this
alleged protocol stated that “very, very drunk”
detainees may be too incoherent and cannot answer
questions during the book-in process. ROA.1218, p.
222. Jail officials no doubt have a legitimate interest
in ensuring that a detainee understands intake
questions and responds accordingly.
Indeed, in a strikingly similar case, the Fifth
Circuit has observed, “it seems objectively reasonable
for the Jailers to allow an intoxicated inmate to ‘sleep
it off,’ with periodic monitoring to safeguard her wellbeing.” Estate of Allison v. Wansley, 524 Fed. App’x.

27
963, 972 (5th Cir. 2013). There, the Fifth Circuit
adopted similar reasoning by the Fourth Circuit in
Grayson v. Peed, 195 F.3d 692, 696 (4th Cir. 1999):
[The deceased inmate’s] symptoms hardly
distinguish him from the multitude of drug
and alcohol abusers the police deal with
every day. [The deceased inmate] was found
in possession of drugs while acting
irrationally and slurring his speech.
However, an officer could hardly be faulted
under [Estelle v. Gamble, 429 U.S. 97, 97 S.
Ct. 285, 50 L. Ed. 2d 251 (1976)] for believing
that [the deceased inmate] needed nothing so
much as to sleep it off. To accept appellant’s
claim would be to mandate as a matter of
constitutional law that officers take all
criminal suspects under the influence of
drugs or alcohol to hospital emergency rooms
than detention centers. That would be a
startling step to take.
Wansley, 524 Fed. App’x at 972. To say, on one hand,
it is objectively reasonable for jail officials to allow
intoxicated inmates to “sleep off” intoxication, but on
the other hand, such an alleged policy may amount to
punishment under the Due Process Clause, is plain
nonsense.
Similarly, in analyzing Respondents’ “failure to
assess” claim, the panel also ignores the Fifth Circuit’s
earlier recognition that jailers should be able to rely
on information from detainees concerning their
medical or mental state and condition. See Whitt, 529
F.3d at 284. Rather, in the panel’s own words, its

28
decision imposes an unprecedented burden on county
jails to “detect and treat a suicidal detainee” in order
to “prevent[] an overdosee from successfully killing
herself.” App. at 25a—26a.
Not only is this new rule a completely
unreasonable burden to place on local jail facilities, it
conflicts with prior decisions of this Court, the Fifth
Circuit, and circuit courts across the nation that jail
officials owe no duty to detainees to ascertain whether
they are truly suicidal and prevent them from hurting
themselves. See e.g., Evans v. City of Marlin, Tex., 986
F.2d 104, 108 (5th Cir. 1993) (“Absent such a right [to
a complete psychological examination], the failure to
train custodial officials in screening procedures to
detect latent suicidal tendencies does not rise to the
level of a constitutional violation.”); Whitt, 529 F.3d
278, 284 n.10 (citing Burns v. City of Galveston, 905
F.3d 100, 104 (5th Cir. 1990) (“Failure to train police
officers in screening procedures geared toward
detection of detainees with suicidal tendencies may
rise to the level of a constitutional deprivation only if
the right of detainees to adequate medical care
includes an absolute right to psychological screening.
We perceive no such right.”); Danese v. Asman, 875
F.2d 1239,1244 (6th Cir. 1989) (upholding qualified
immunity because there was no authority “that the
officers had the constitutional duty to determine if
Danese was seriously inclined to commit suicide and
then stop him.”); Grayson v. Peed, 195 F.3d 692, 696
(4th Cir. 1999); see also Burnette v. Taylor, 533 F.3d
1325, 1333 (11th Cir. 2008) (“The Constitution does
not require a police officer or jail official to seek
medical attention for every arrestee or inmate who

29
appears to be affected by drugs or alcohol.”)(other
citations omitted).
In another recent case a Fifth Circuit panel
returned to the well-established principal that
conditions of confinement cases are very difficult to
establish and generally pertain to widespread, obvious
activity of jail administrators. In Garza v. City of
Donna, 922 F.3d 626 (5th Cir. 2019), the court
examined a jail suicide case as an “episodic act”
(deliberate indifference) rather than its alternative,
the disciplined until now approach, of “conditions”
cases. In City of Donna, the plaintiffs claimed inter
alia, that the jail had failed to monitor the inmate and
the court held:
Appellants’ conditions theory is an effort to
fit a square peg into a round hole. Prior
conditions cases have concerned durable
restraints or imposition on inmates’ lives like
overcrowding, deprivation of phone or mail
privileges,
the
use
of
disciplinary
segregation, or excessive heat. See Yates v.
Vollier, 868 F.3d 354, 360 (5th Cir. 2017)
(heat); Scott v. Murphy, 114 F.3d at 51, 53 &
n.2 (5th Cir. 1997) (en banc) (collecting other
examples). The import of the Donna jail’s
signs is too nebulous to amount to an official
rule or restriction, and the signs do not
operate as a continuing burden on inmate
life in the way that dangerously high
temperatures or overcrowded cells do. As
such, the district court was correct to reject
Appellants’ conditions theory.

30

Id. at 633-34.
Yet here, the Fifth Circuit panel determined to
wade into jail operations again without any specific
analysis of deliberate indifference, and has effectively
disallowed the use of holding cells or “drunk tanks” in
Texas, Louisiana, and Mississippi.
Instead of following this Court’s instructions to
accord prison administrators wide-ranging deference
to implement policies or practices that facilitate
efficient jail management, the Fifth Circuit has
erroneously immersed itself in “how best to operate a
detention facility” without regard to constitutional
requirements. See Bell, 441 U.S. at 539; see also
Whitley v. Albers, 475 U.S. 312 (1986); Farmer v.
Brennan, 511 U.S. 825 (1994); Lewis v. Casey, 518
U.S. 343 (1996); Beard v. Banks, 548 U.S. 521 (2006).
The extraordinary burdens the panel places on county
jails are unprecedented and not constitutionally
required. This Court should, therefore, grant this
petition for certiorari.
CONCLUSION
For the reasons explained above, Petitioners
respectfully submit that this Court should grant this
petition for writ of certiorari.

31

Respectfully submitted,
S. Cass Weiland
Counsel of Record
Robert A. Hawkins
SQUIRE PATTON BOGGS (US) LLP
2000 McKinney Avenue, Ste.1700
Dallas, Texas 75201
(214) 758-1500
(214) 758-1550 (fax)
cass.weiland@squirepb.com
Counsel for Petitioners

APPENDICES

1a
APPENDIX A
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10222
[Filed June 29, 2020]
D.C. Docket No. 7:15-CV-00012-O
NICHOLE
SANCHEZ;
CASY
SIMPSON;
EDWARD LAROY SIMPSON, II, Individually and
as the Representative of the Estate of Diana Lynn
Simpson,
Plaintiffs – Appellants
v.
YOUNG COUNTY, TEXAS; YOUNG COUNTY
SHERIFF’S DEPARTMENT,
Defendants – Appellees
Appeal from the United States District Court
For the Northern District of Texas
ON PETITION FOR
REHEARING EN BANC
(Opinion 4/22/20, 5th Cir., ______, ______, F.3d
_____)
Before
CLEMENT,
HIGGINSON,
ENGELHARDT, Circuit Judges.

and

2a
PER CURIAM:
(x)
Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. No member of the
panel nor judge in regular active service of the court
having requested that the court be polled on
Rehearing En Banc (FED. R. APP. P. and 5TH CIR. R.
35), the Petition for Rehearing En Banc is DENIED.
()
Treating the Petition for Rehearing En Banc
as a Petition for Panel Rehearing, the Petition for
Panel Rehearing is DENIED. The court having been
polled at the request of one of the members of the
court and a majority of the judges who are in
regular active service and not disqualified not
having voted in favor (FED. R. APP. P. and 5TH CIR.
R. 35), The Petition for Rehearing En Banc is
DENIED.
ENTERED FOR THE COURT
/s/ Edith Brown Clement
UNITED STATES CIRCUIT
JUDGE

3a
APPENDIX B
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10222
[Filed April 22, 2020]
D.C. Docket No. 7:15-CV-00012-O
NICHOLE
SANCHEZ;
CASY
SIMPSON;
EDWARD LAROY SIMPSON, II, Individually and
as the Representative of the Estate of Diana Lynn
Simpson,
Plaintiffs – Appellants
v.
YOUNG COUNTY, TEXAS; YOUNG COUNTY
SHERIFF’S DEPARTMENT,
Defendants – Appellees
Appeal from the United States District Court
For the Northern District of Texas
Before CLEMENT, HIGGINSON, and
ENGELHARDT, Circuit Judges.
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.

4a
It is ordered and adjudged that the judgment
of the District court is affirmed in part, reversed in
part, and the cause is remanded to the District court
for further proceedings in accordance with the
opinion of this Court.
IT IS FURTHER ORDERED that each party
bear its own costs on appeal.
[Court’s Seal]
Certified as a true copy
and issued as the mandate
On Jul 07, 2020
Attest: /s/ Lyle W. Cayce
Clerk, U.S. Court of
Appeals, Fifth Circuit

5a
APPENDIX C
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 19-10222
[Filed April 22, 2020]
NICHOLE
SANCHEZ;
CASY
SIMPSON;
EDWARD LAROY SIMPSON, II, Individually and
as the Representative of the Estate of Diana Lynn
Simpson,
Plaintiffs – Appellants
v.
YOUNG COUNTY, TEXAS; YOUNG COUNTY
SHERIFF’S DEPARTMENT,
Defendants – Appellees

Appeal from the United States District Court for the
Northern District of Texas
Before
CLEMENT,
HIGGINSON,
ENGELHARDT, Circuit Judges.

and

Diana Simpson died of a drug overdose while she
was a pretrial detainee at the Young County Jail.
Her family (Plaintiffs) sued Young County for her
death under 42 U.S.C. § 1983. We previously
affirmed summary judgment for the County in part,
dismissing Plaintiffs’ episodic acts-or-omissions

6a
theory of liability. Sanchez v. Young County
(Sanchez I), 866 F.3d 274, 280 (5th Cir. 2017). But we
remanded for the district court to evaluate Plaintiffs’
conditions-of-confinement theory in the first
instance. Id. at 279. The district court granted
summary judgment for the County on that theory,
too. Plaintiffs appeal. We reverse in part and
remand.
I.
Simpson’s death was a suicide. This was not her
first attempt. After her previous attempt, she told
her husband that, were she to try again, she could
get cash from an ATM and go to a motel so that he
could not find her. Once there, she would overdose
on pills. So her husband was understandably
concerned when, a few weeks after Simpson said
this, he noticed a cash withdrawal from his bank
account.
He tried to contact Simpson, but she did not
respond. He called the hospital where she worked,
but she was not there. When she did not report for
her shift the next evening, he called law enforcement
and filed missing-person and be-on-the-lookout
reports. Eventually, someone saw her car on the side
of the road in a nearby city and called the police.
Police officers found Simpson asleep in her
vehicle. They woke her and noticed that her “speech
was slurred, that she was slow on her answers, and
that [she was] talking real[ly] quiet[ly].” She “had a
hard time keeping her eyes open to talk,” “kept
leaning her head back against” the headrest, and

7a
“had a hard time getting her [license] out of her
wallet that was in her lap” and “trying to get a cup of
water to her mouth” for a drink. She denied being
diabetic or having any medical conditions. She
initially denied taking any medications and said that
she had something to drink the previous night to
help her sleep. The officers called EMS to come
evaluate her. EMS medics determined that her vitals
were “fine” and that her blood sugar was normal, but
noted that her blood pressure was high and her
pulse was low.
According to the officers, she “was unsteady on
her feet and almost fell down;” she “had to be
assisted while walking and could not stand on her
own.” With Simpson’s permission, they searched her
car and found beer cans—some empty—and empty
blister packs for twenty-four pills. These pills
included antihistamines, muscle relaxers, and
antipsychotics. They asked her how much she took.
Her answer: “all of it.” She denied to officers that she
was trying to hurt herself and declined to go to the
hospital. But she told one of the medics that she was
trying to kill herself.
The officers determined that Simpson, if left
alone, was a danger to herself or to others, “due to
her being on some type of medication,” so they
arrested her for public intoxication and took her to
Young County Jail.
When Simpson arrived, Jailers started the bookin process. They never finished. On the suicidescreening form, they completed only the detaineequestion portion; left undone was the portion for

8a
jailer observations. Completing that form is
mandatory, but because they thought that Simpson
was drunk, they put her in a holding cell at 6:30 p.m.
to “sleep it off.” Several jailers stated that this and
other book-in forms, such as a computer-based
medical intake form, did not have to be completed at
intake; they could be completed later. Jailers also
stated that they could review the state-mandated
Continuity of Care Query results later. See 37 TEX.
ADMIN CODE § 273.5(b), (c). The Query results show
if a detainee has received state-provided mental
health services.
The Query results confirmed that Simpson had
received such services, but jailers did not review this
information. Nor did they consider the be-on-thelookout report, the arrest report, the officers’
statements, or that officers brought to the jail a bag
of the empty pill packs—all of which suggested that
Simpson had taken medication and could be in
danger. Instead, jailers relied on Simpson’s
responses to their questions and put on her
screening form that she was not on medication.
Simpson’s husband called the jail three times to
check on her. But jailers apparently did not consider
the information that he provided when determining
whether Simpson needed medical care. In his first
call, before she arrived at the jail, he told jailers that
she had been missing for two days and was suicidal.
In his second call, after she had arrived, he again
said that she was threatening suicide and asked that
the jail get her help. That jailer did not think these
warnings were relevant because, according to him,
the jail would not contact mental-health services

9a
unless Simpson was sober and attempted or
admitted to attempting suicide at the jail. Her
husband’s third call was after she died.
When a jailer returned to complete the book-in
process at 2:55 a.m., Simpson was on the cell floor,
unresponsive and naked from the waist down. She
had been lying there, half-naked, almost the entire
night. Jailers took her to the hospital where she was
pronounced dead. Her cause of death was “mixed
drug intoxication.”
While Simpson was in the cell, jailers performed
periodic cell checks. The only way to see Simpson in
the cell during these checks was to slide open an
observation window on the cell door. These call
checks were logged using an electronic wand system.
According to the cell-check logs, jailers checked on
Simpson every 25 minutes between 6:52 p.m. and
2:54 a.m., and two jailers swore that the logs were
accurate. But a subsequent Texas Ranger
investigation revealed at least four discrepancies
with the logs and video recordings of Simpson’s cell.
First, the jail somehow lost the recording for 7:52
p.m.—2:00 a.m. The investigating Texas Ranger
made several unsuccessful attempts to obtain this
missing recording—the jail administrator sent CDs
supposedly containing the missing recording several
times, but none covered the missing six-hour
window. The administrator’s explanations for these
mix-ups were that he downloaded the wrong day,
then that the system had been upgraded, and then
that the video was inexplicably gone. The company
that performed the upgrade, however, stated that
the upgrade would not affect the recording. Second,

10a
the records that are available show that no one
checked on Simpson between 6:52 p.m. and 7:52
p.m., despite cell-check logs showing otherwise.
Third, the recordings show a cell check at 2:45 a.m.,
but that check was not logged; and the log shows a
cell check at 2:18 a.m., but that check is not on the
recording. Fourth, the recordings show that contrary
to jailers’ statements, Simpson does not move at all
after 2:00 a.m.
The County did not conduct its own investigation
of Simpson’s death, and the County sheriff and jail
administrator testified that there were no issues
with jail policies and that Simpson’s death was a
suicide that no one could have detected. No jailers
were reprimanded or fired because of Simpson’s
death.
In the five years before Simpson’s death,
numerous Texas Commission on Jail Standards
reports noted that the County jail failed to document
observations of inmates, filed to conduct hourly faceto-face observations, failed to conduct thirty-minute
observations of detainees in holding or detox cells,
and failed to properly complete intake screening
forms. After Simpson’s death, Commission reports
noted several more potential shortcomings at the
jail; failing to notify the magistrate or state mentalhealth services of inmates who may have mentalhealth issues, exceeding thirty-minute observation
intervals of holding and detox cells, failing to provide
“efficient and prompt care to inmates for acute
situations,” and using observation forms without
properly recording times.

11a
Plaintiffs sued the County for Simpson’s death
under § 1983, alleging Eighth and Fourteenth
Amendment violations, and under the Texas Tor
Claims Act. After removing the case to federal court,
the County moved for summary judgment on all
claims. The district court granted the motion.
Plaintiffs appealed the dismissal of only their § 1983
claim. We affirmed in part, dismissing Plaintiffs’
§ 1983 claim to the extent that it was based on an
episodic-acts-or-omissions liability theory. Sanchez I,
866 F.3d at 280. But we held that the district court
erred in failing to consider Plaintiffs’ alternative
conditions-of-confinement theory and, therefore,
remanded for the district court to consider whether a
genuine dispute of material fact existed under that
theory. Id. at 280-81.
On remand, Plaintiffs amended their complaint
to allege twelve de facto policies that caused
Simpson to be denied her constitutional right to
medical care:
a. Defendant Young County had no actual
procedure for an assessment or determination of
the suicide risk of pretrial detainees, despite the
existence of a form, as the de facto policy of
Young County officials was not to complete forms.
Indeed, the policymaker undertook no efforts to
ensure that forms were properly used or filled out
thereby providing a de facto policy of not
requiring
adherence
to
proper
suicide
assessment.

12a
b. Defendant Young County systematically ignored
the written policies for observation of pretrial
detainees posing a suicide risk.
c. Defendant Young County, while having a written
policy, did not, in practice, place pretrial
detainees deemed a suicide risk in the cells that
would allow for maximum visual observation at
all times of the safety and welfare of those
detainees[.]
d. Defendant Young County’s systematic failure to
complete
the
required
intake
screening
instrument resulted in the misclassification and
misplacement of highly [ ] intoxicated pretrial
detainees in cells that lacked maximum visual
observation at all times by Young County Jail
staff.
e. Defendant Young County had no enforced policy
for the proper monitoring of highly [ ] intoxicated
pretrial detainees.
f. Defendant Young County had a longstanding
policy, custom, and practice of detaining highly [ ]
intoxicated detainees without constitutionally
adequate visual surveillance or audio monitoring,
which did not allow for maximum visual
observation at all times by Young County Jail
staff.
g. Defendant Young County chose a policy to only
conduct “cell checks” on pretrial detainees every
twenty-five minutes. But its policy and custom
was to house highly [ ] intoxicated pretrial

13a
detainees in cells that lacked adequate audio and
visual surveillance while only checking those
cells once every twenty-five minutes and not
actually entering the cells to closely monitor the
detainees’ health and safety. Instead, the jail
staff was allowed to use a wand system whereby
they could record a “cell check” without ever
actually entering the cell.
h. Defendant Young County had no enforced policy
to comply with [Commission] requirements
related to the [Query] system, including its
required training, use and required follow-up.
i. Defendant Young County, by policy, allowed
untrained personnel without proper jailer
certificates and training to monitor inmates with
documented mental and medical issues.
j. Defendant Young County did not adequately
train staff on how to properly recognize inmates
at risk for overdose, suicide, or to monitor and
keep [inmates safe] from overdose or suicide in
violation of [Texas law].
k. Defendant Young County had no alcohol or detox
policy for persons with documented coherency
issues,
documented
drug
ingestion
and
documented suicide tendencies such as Ms.
Simpson.
l. Despite a written policy, Defendant Young
County failed to have an established procedure
for visual, face-to-face observation of all inmates
by jailers, in violation of [Texas law].

14a
The County again moved for summary judgment,
and the district court again granted the motion. It
found that Plaintiffs alleged three types of de facto
policies: failure to train, failure to observe detainees,
and failure to complete forms and identify suicidal
tendencies upon intake. It held that Plaintiffs failed
to create a fact issue over whether the alleged
training and observation policies were pervasive.
The court did find a fact issue over whether the third
policy is pervasive, but held that, even if it is, it did
not cause Simpson’s death. Plaintiffs again appeal.
II.
We review a district court’s grant of summary
judgment de novo. Bridges v. Empire Scaffold,
L.L.C., 875 F.3d 222, 225 (5th Cir. 2017). Summary
judgment is appropriate when no genuine dispute of
material facts exists and the movant is entitled to
judgment as a matter of law. FED. R. CIV. P. 56(a). A
genuine dispute of material facts exists “if the
evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A court
must resolve all reasonable doubts and draw all
reasonable inferences in the light most favorable to
the nonmovant. See Walker v. Sears & Roebuck &
Co., 853 F.2d 355, 358 (5th Cir. 1988). A court should
enter summary judgment against a party when it
has the burden of proof at trial yet fails to establish
an element of its case. Celotex Corp. v. Catrett, 477
U.S. 317, 322 (1986). If “reasonable minds could
differ” on “the import of the evidence,” a court must
deny the motion. Anderson, 477 U.S. at 250.

15a
III.
Municipalities can be held liable for violating a
person’s constitutional rights under § 1983. See
Monell v. Dep’t of Soc. Servs., 436 U.S. 658, 690
(1978). For pretrial detainees, such rights include
the right to medical care, Sanchez I, 866 F.3d at 279,
and the right to be protected from known suicidal
tendencies, Flores v. County of Hardeman, 124 F.3d
736, (5th Cir. 1997). These procedural and
substantive due-process rights stem from the
Fourteenth Amendment. Hare v. City of Corinth, 74
F.3d 633, 639 (5th Cir. 1996) (en banc) (citing Bell v.
Wolfish, 441 U.S. 520 (1979)). This Circuit
characterizes such § 1983 violations of a pretrial
detainee’s rights as either episodic-acts-or-omissions
claims or conditions-of-confinement claims. Id. at
644. For both claims, a plaintiff has two burdens: to
show (1) that a constitutional violation occurred and
(2) that a municipal policy was the moving force
behind the violation. See Monell, 436 U.S. at 694. We
previously affirmed summary judgment on Plaintiffs’
episodic-acts-or-omissions claim in Sanchez I,
remanding with instructions that the district court
analyze whether a genuine dispute of material fact
precluded summary judgment on their conditions-ofconfinement claim. Sanchez I, 866 F.3d at 281. Such
claims are challenges to the “general conditions,
practices, rules, or restrictions of pretrial
confinement.” Hare, 74 F.3d at 644. The issue is
whether the conditions “amount to punishment.”
Bell, 441 U.S. at 535.

16a
To prevail on a conditions-of-confinement claim,
the plaintiff must show a condition—a “rule,” a
“restriction,” an “identifiable intended condition or
practice,” or “sufficiently extended or pervasive”
“acts or omissions” of jail officials—that is not
reasonably related to a legitimate government
objective and that caused the constitutional
violation. Duvall v. Dallas County, 631 F.3d 203, 207
(5th Cir. 2011) (quoting Hare, 74 F.3d at 645).
Plaintiffs argue that the County has numerous
de facto policies that systematically deny medical
care to highly intoxicated detainees—e.g., policies of
placing highly intoxicated detainees into holding or
detox cells to “sleep it off” without proper medical or
risk-of-suicide assessment or treatment, of ignoring
outside information when assessing a detainee’s
medical needs and of failing to train jailers to
evaluate detainees’ mental-health and medical
needs. We find that these policies are best framed as
covering three categories: failure to assess, failure to
monitor, and failure to train. Plaintiffs argue that
the district court erred in finding no genuine
disputes of material fact about whether the County
had these alleged de facto policies or whether they
caused a violation of Simpson’s constitutional rights.
A.
Plaintiffs claim that the County denied Simpson
adequate medical care by failing to train its jail
employees. The district court examined this failureto-train theory as a conditions-of-confinement claim.
Sanchez v. Young County (Sanchez II), No. 7:15-CV00012-O, 2019 WL 280092, at *5 n.3 (N.D. Tex. Jan.

17a
22, 2019). It should have examined their theory as
an episodic-act-or-omissions claim. See Flores, 124 F.
3d at 738 (treating the plaintiff’s training-andstaffing-based allegations as an episodic-acts-oromissions claim even though the plaintiff attempted
to plead them as a conditions-of-confinement claim).
Failure-to-train claims are not conditions-ofconfinement claims, so dismissing Plaintiffs’ claim as
such was error.1
Nevertheless, we agree that this claim should be
dismissed. As the County correctly argues, the claim
is barred. We affirmed the dismissal of Plaintiffs’
episodic-acts-or-omissions claim in Sanchez I. 866
F.3d at 281. The law-of-the-case doctrine therefore
prohibits us from reexamining this legal issue. See
United States v. Teel, 691 F.3d 578, 582 (5th Cir.
2012). And Plaintiffs do not argue that any
exceptions to this doctrine apply here. Thus, we
affirm the district’s court’s dismissal of Plaintiffs’
failure-to-train claim.
B.
The district court dismissed Plaintiffs’ claims
based on a failure to monitor because it held that
Plaintiffs failed to raise a fact issue over whether the
County had an “unofficial custom or practice—much
less pervasive acts—of failing to monitor detainees.”
The court held that the evidence “plainly contradicts
Plaintiffs’ characterizations” of the County’s
The district court, for its part, correctly noted that we treat
failure to train claims as episodic-acts-or-omissions claims.
Sanchez II, 2019 WL 280092, at *5 n.3.
1

18a
practices because Plaintiffs did not offer evidence of
other detainees who jailers failed to monitor; the
County’s use of an electronic wand system did not
prove a failure to complete cell checks, and any
discrepancies in these checks do not show a de facto
policy; and several jailers attested to the existence of
written monitoring policies. It therefore concluded
that Plaintiffs’ allegations show that the failures
were individual ones, not generalized failures that
evidenced a de facto policy. This conclusion was
error, however, because the court failed to consider
all of Plaintiffs’ evidence and arguments or to view
them in light most favorable to Plaintiffs.
First, the district court incorrectly faulted
Plaintiffs for not “provid[ing] evidence of other
detainees [who] jailers failed to observe.” Plaintiffs
did provide such evidence: the Texas Commission on
Jail Standards reports about inadequate detainee
monitoring from before and after Simpson’s death.
Those reports are evidence that jailers failed to
monitor other detainees. The district court erred in
discounting these reports.
Second, the district court did not even consider
evidence that the county policymaker effectively
ratified the prior misconduct. In municipal-liability
cases, the issue is whether the complained-of “act [ ]
may fairly be said to represent official policy.”
Monell, 436 U.S. at 694. Practices that are
“sufficiently extended or pervasive, or otherwise
typical of extended or pervasive misconduct,” can
represent official policy. Hare, 74 F.3d at 645. This is
because pervasive practices can be evidence that the
official policymaker knew of and acquiesced to the

19a
misconduct, making the municipality culpable. See
Piotrowski v. City of Houston, 237 F.3d 567, 578 (5th
Cir. 2001).
Showing a pervasive pattern is a heavy burden.
See Shepherd v. Dallas County, 591 F.3d 445, 452
(5th Cir. 2009). But here, no one disputes that the
County sheriff is the relevant policymaker or that he
knew about the Commission reports and about the
details of Simpson’s death. And Plaintiffs argue that
even after her death, the sheriff neither punished
any jailers involved nor took any action to correct the
jail’s alleged deficiencies. When the official
policymaker knows about misconduct yet allegedly
fails to take remedial action, this inaction arguably
shows acquiescence to the misconduct such that a
jury could conclude that it represents official policy.
See Duvall, 631 F.3d at 208-09 (upholding jury
finding that a county jail maintained an
unconstitutional condition where there was evidence
that
the
county
policymaker
knew
of
unconstitutional conditions yet failed to revise its
policies); Grandstaff v. City of Borger, 767 F.2d 161,
171 (5th Cir. 1985) (holding that, because the city
policymaker failed to change policies or to discipline
or reprimand officials, the jury was entitled to
conclude that the complained-of-practices were
“accepted as the way things are done and have been
done in” that city); see also Piotrowski, 237 F.3d at
578 n.18 (explaining that Grandstaff affirmed
municipal liability because a policymaker’s postincident actions can ratify the prior misconduct).
Plaintiffs’ evidence therefore creates a fact issue
about whether the sheriff acquiesced to the allegedly
inadequate monitoring practices.

20a
Third, the district court misunderstood the
relevance of evidence about the County’s electronic
wand system. The court did not consider how
discrepancies between cell-check logs and video
recordings of Simpson’s cell—or the inexplicably
missing six hours of these recordings—might affect
the jailers’ credibility. This evidence might suggest
to a jury that jailers were dishonest about how they
monitored Simpson and that they tried to cover up
their failure to monitor. A jury might then
reasonably conclude that, in light of multiple reports
that the jail inadequately monitored detainees, such
dishonesty and an apparent cover-up is “typical of
extended or pervasive misconduct.” Hare, 74 F.3d at
645; see Kennett-Murray Corp. v. Bone, 622 F.2d 887,
895 (5th Cir. 1980) (holding that inconsistent
testimony “present[s] questions of credibility which
require jury resolution”). This creates a fact issue
over whether jailers habitually failed to properly
monitor detainees.
Fourth, the existence of written monitoring
policies does not, as a matter of law, negate
Plaintiffs’ above-mentioned evidence that the
allegedly inadequate monitoring practices were
pervasive. Indeed, Plaintiffs allege that the jail had
a practice of ignoring its written policies. A jury
might conclude that such written policies undercut
Plaintiffs’ failure-to-monitor theory, but the written
policies do not compel that conclusion. Plaintiffs’
evidence, when viewed in the light most favorable to
them, creates several disputes of material fact about
whether the jail has a de facto policy of inadequately

21a
monitoring detainees. Thus, the district court’s
contrary holding was error.
C.
The district court categorized Plaintiffs’ failureto-assess allegations as making two claims: that the
County had a pervasive practice of (1)
“misclassifying and misplacing highly intoxicated
pretrial detainees in cells that lacked maximum
visual observation at all times,” and (2) “not
ensuring intake assessment forms were properly
used or filled out.” For the first claim, the court held
that Plaintiffs did not provide evidence that the
alleged practice of placing intoxicated detainees in
holding cells before completing the book-in process is
pervasive. For the second claim, though the court
found that Plaintiffs created a fact issue over
whether jailers “pervasively failed to timely complete
suicide screening and medical intake forms when
intoxicated detainees first arrived” at the jail, it held
that Plaintiffs failed to create a fact issue over
whether this alleged practice caused a violation of
Simpson’s constitutional rights.
For the first claim, the district court’s holding
was error. Our holding in an uncannily similar case,
Montano v. Orange County, 842 F.3d 865 (5th Cir.
2016), makes this clear. One way a plaintiff can
prove the existence of a de facto policy is through the
“consistent testimony of jail employees.” Id at 875.
At least three jailers here testified that the jail’s
protocol with highly intoxicated detainees is to place
them in holding cells to “sleep off” their apparent
intoxication before completing book-in. For example,

22a
(1) the jail administrator testified that intoxicated
detainees are put in holding cells before completing
medical and other intake forms; (2) another jailer
stated that the “protocol for alcohol or drug detox” is
to place detainees “in the holding cell after their
initial book-in,” allowing “very very drunk” inmates
to “sleep for a while”; and (3) the jailer who spoke to
Simpson’s husband when he called the jail stated
that Simpson would have to “sleep it off” before she
could receive help or treatment. Indeed, the district
court noted this practice, stating that several jailers
“testified that medical forms were generally
completed later during the book-in process than the
suicide screening—after a detainee had time to
regain sobriety.” This seemingly consistent
testimony creates a fact issue over whether the
County has a policy of placing highly intoxicated
detainees in holding cells to “sleep off” their
apparent intoxication without completing book-in
procedures like medical and suicide screening. And
as we held in Montano—a case we affirmed after a
full trial—a de facto policy can be established
through consistent testimony that a jail has a
practice of leaving intoxicated detainees in a cell
until they become coherent. Id. Thus, given the
similarities between these cases, Montano controls
our holding: consistent jailer testimony about a de
facto policy creates a factual dispute that precludes
summary judgment.
To the extent the County disputes that this is
the jail’s detox protocol or that jailer testimony is
consistent, resolving those disputes is the province of
the jury. Who the jury believes depends on who it
finds credible. And credibility determinations are the

23a
“purest of jury issues. Hindman v. City of Paris, 746
F.2d 1063, 1068 (5th Cir. 1984). The County might
show that this alleged “sleep it off” policy is not
pervasive, but whether it succeeds is for the jury to
decide.
For the second claim, we agree with the district
court that the jailers’ testimony on whether they
“pervasively failed to timely complete suicide
screenings and medical intake forms when
intoxicated detainees first arrived” at the jail “was
strikingly consistent.” We therefore also agree that
Plaintiffs raised a fact issue over whether this
practice showed a de facto policy. But we disagree
that Plaintiffs failed to create a fact issue about
causation.
The district court concluded that the failure to
complete the bottom of the suicide-screening form
was not itself a but-for cause of Simpson being
denied needed medical care. That might be so, but
the court erred in viewing the failure to complete
this form in isolation. We do not require a plaintiff to
show that a “policy or practice [was] the exclusive
cause of the constitutional deprivation.” M.D. ex rel.
Stukenberg v. Abbott, 907 F.3d 237, 254 (5th Cir.
2018). Courts “may . . . consider how individual
policies or practices interact with one another within
the larger system.” Id. at 255. This is because
confinement conditions may be constitutionally
inadequate if, when viewed in combination, they
have a “mutually enforcing effect that produces the
deprivation of a single, identifiable human need.”
Wilson v. Seiter, 501 U.S. 294, 304 (1991).

24a
Plaintiffs allege numerous de facto policies
affecting highly intoxicated detainees. For example,
policies where jailers are not required to complete
suicide or medical-screening forms, review Query
results, or complete the book-in process; a policy of
not contacting mental-health services unless the
detainee is sober and attempts suicide or indicates
on the suicide-screening form that she is suicidal; a
policy of accepting detainees arrested for public
intoxication without a known blood-alcohol content
or further medical clearance so long as they are
responsive and not falling down at intake; and a
“sleep it off” detox policy that does not include
further
medical
assessments
or
adequate
monitoring. Plaintiffs also allege a policy of
disregarding outside information when assessing a
detainee’s medical needs. The district court did not
address these alleged policies, much less consider
how they might interact.
Reasonable minds might disagree about whether
these alleged policies interacted to violate Simpson’s
constitutional rights. But a jury is “free to choose
among reasonable constructions of the evidence.”
E.E.O.C. v. Boh Bros. Constr.Co., 731 F.3d 444, 452
(5 th Cir. 2013) (en banc) (quoting United States v.
Ramos-Cardenas, 524 F.3d 600, 605 (5th Cir. 2008)).
A jury could reasonably conclude that policies where
jailers are not required to review Query results or to
complete medical forms during the book-in process
for highly intoxicated detainees—coupled with a
policy of ignoring outside information when
assessing medical needs—were a substantial factor
in causing Simpson to be denied medical care. One
jailer testified that outside information such as

25a
missing-person and be-on-the-lookout reports are not
considered when assessing an inmate at book-in.
Another jailer testified that, when determining
whether to contact mental-health services, jail policy
is to consider only the query information, the
suicide-screening
form,
and
jailers’
own
observations, but not outside information from
family members or the arresting officer. And even
though reviewing the query results here might have
led to Simpson receiving medical care—one jailer
admitted that, had she reviewed the Query results,
she would have known that Simpson’s responses at
intake were not true—the alleged practice is to not
review those results until completing book-in. That
might happen hours later, because the jail’s alleged
policy is to place highly intoxicated detainees like
Simpson into a holding cell to “sleep it off” before
completing book-in.
Indeed, viewing the evidence in light most
favorable to Plaintiffs, how jailers could ever detect
and treat a suicidal detainee who took a fatal
overdose of drugs is unclear. The Coutny’s alleged
policies are to place seemingly intoxicated detainees
in a cell to sober up before they receive further
medical screening. In situations like the one here,
where a detainee is arrested for public intoxication
but her blood-alcohol content is unknown, jailers do
nothing to confirm their suspicion that the detainee
is merely intoxicated or to confirm that the detainee
is not too in intoxicated to safely sleep it off. Cf.
Montano, 842 F.3d at 879 (faulting the defendant for
not addressing why, under its policies, “detainees
were expected to heal themselves, particularly when
the assumed drug influence was never established”).

26a
Unless the detainee decides to abandon her suicide
effort, she will sit in a cell to sober up before she can
receive further medical screening. But someone who
has ingested a lethal dose of drugs, like Simpson did,
will never sober up, so she will never get further
medical screening.
The County has no apparent process or policy for
preventing such an overdosee from successfully
killing herself. The jail has no medical staff, jailers
do not consider outside information that contradicts
what a detainee states at intake, or after intake,
jailers do not conduct follow-up assessments. The
only follow-up they do is periodic monitoring. And
Plaintiffs claim that this monitoring is pervasively
inadequate.
Given the different, compounding ways that
these alleged policies might interact a jury could
reasonably conclude that they had a “mutually
enforcing effect” that deprived Simpson of needed
medical care. Wilson, 501 U.S. at 304. The district
court therefore erred as a matter of law in finding no
genuine dispute of material fact about causation.
The County argues, however, that we already
decided this causation issue in its favor in Sanchez I.
That is incorrect. Although we stated that Plaintiffs
did not offer proof that failing to complete intake
forms caused Simpson’s death, we did so when
evaluating
Plaintiffs’
episodic-acts-or-omissions
claims. Sanchez I, 866 F.3d at 280. We explicitly
remanded for the district court to consider Plaintiffs’
conditions-of-confinement claim “in the first
instance” and, therefore, could not have decided the

27a
causation issue for that claim. Id. at 281. Moreover,
our previous holding addressed whether an episodic
act or omission, in isolation, caused Simpson harm.
But as the Supreme Court has held and as our court
has confirmed, conditions-of-confinement claims can
be based on multiple interacting policies. Wilson, 501
U.S. at 304; Stukenberg, 907 F. 3d at 254. And in
any event, Plaintiffs produced additional causation
evidence on remand that we did not review in
Sanchez I. Because a fact issue exists over whether
multiple policies interacted to cause constitutionally
inadequate confinement conditions, the district court
erred in granting summary judgment for the County.
Plaintiffs raised several material factual
disputes that preluded summary judgment. They
offered sufficient evidence to create fact issues over
whether the County has de facto policies of failing to
monitor and failing to assess pretrial detainees’
medical needs and whether these policies caused
Simpson to be denied needed medical care. Plaintiffs’
failure-to-train claim, however, was barred. We
therefore reverse in part and affirm in part the
district court’s grant of summary judgment and
remand for further proceedings consistent with this
opinion.

28a
APPENDIX D
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
No. 7:15-cv-00012-O
[Filed January 22, 2019]
NICHOLE SANCHEZ, et al. – Plaintiffs
v.
YOUNG COUNTY, TEXAS, et al. – Defendants
FINAL JUDGMENT
The Court issued its order granting
Defendants’ Motion for Summary Judgment. See
ECF No. 83. It is therefore ORDERED,
ADJUDGED, and DECREED that Defendants’
Motion for Summary Judgment (ECF No. 44) is
GRANTED, and this case is DISMISSED with
prejudice.
So ORDERED on this 22nd day of January,
2019.
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES
DISTRICT JUDGE

29a
APPENDIX E
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF TEXAS
WICHITA FALLS DIVISION
No. 7:15-cv-00012-O
[Filed January 22, 2019]
NICHOLE SANCHEZ, et al. – Plaintiffs
v.
YOUNG COUNTY, TEXAS, et al. – Defendants
MEMORANDUM OPINION AND ORDER
Before the Court are Defendants’ Motion for
Summary Judgment and Brief in Support (ECF Nos.
44-45), filed October 15, 2018; Plaintiffs’ Response
and Brief in Support (ECF Nos. 49-50), filed
November 5, 2018; and Defendants’ Reply (ECF No.
53), filed November 11, 2018. Having reviewed the
motion, related briefing, and applicable law, the
Court finds that Defendants’ motion should be and is
hereby GRANTED.
I.

FACTUAL BACKGROUND

This case arises out of the death of Diana Lynn
Simpson (“Mrs. Simpson”), a pretrial detainee in the
Young County Jail (the “Jail”). Mrs. Simpson battled
depression and attempted suicide a year before her

30a
death. See Pls.’ Br. Supp. Resp. 3, ECF No. 50
[hereinafter, “Pls.’ Br. Resp.”]. Two weeks before her
death, Mrs. Simpson told her husband Edward Leroy
Simpson (“Mr. Simpson”) that if she “were to take
her own life again, she would withdraw cash from
the ATM, check into a motel using the cash so that
he could not track her, and take a lethal dose of pills
while at the hotel.” Id. On May 18, 2013, Mrs.
Simpson, a nurse, was working the night shift at
Stephens Memorial Hospital in Breckenridge
(“Stephens Memorial”). Id. She often slept at
Stephens Memorial after her shifts because the
Simpsons’ home was 75 miles away. Id. The next
day, Mr. Simpson checked his online bank account
and noticed a cash withdrawal. Id. at 4. Because of
Mrs. Simpson’s previous threats, Mr. Simpson tried
to call her, then called Stephens Memorial to
determine whether she was sleeping there. Id.
Stephens Memorial personnel informed him she left
after her shift. Id. Mr. Simpson tracked Mrs.
Simpson’s cell phone location and determined her
general location. Id. Mr. Simpson again tried to call
her and sent text messages. Id. He then called local
law enforcement agencies to explain his wife was
missing and at risk for suicide. Id. He called
Stephens Memorial again that evening and learned
she had not shown up for her next shift.
The next morning, Mr. Simpson filed a missing
persons report, at the suggestion of Breckenridge
law enforcement. Id. He also posted a photograph of
Mrs. Simpson’s vehicle and license plate number on
Facebook, requesting that anybody who saw the
vehicle contact authorities. Id. at 4-5. That evening,
Mr. Simpson and the City of Graham Police

31a
Department (“Graham Police Department”) received
a call from a woman who saw a vehicle matching the
description. Id. Corporal Kyle Ford (Ford”) of the
Graham Police Department investigated and found
Mrs. Simpson sleeping in her vehicle. Id. at 5; see
also Defs.’ Br. Supp. Mot. 4, ECF No. 45 [hereinafter,
“Defs.’ Mot.”]. Ford determined she exhibited signs of
possible intoxication, such as being “slow in giving
answers, speaking very quietly, [having a] hard time
keeping eyes open, etc.” Pls.’ Br. Resp. 5, ECF No.
50. Ford asked Mrs. Simpson whether she was
diabetic or had any medical conditions, and she
replied, “no.” Id.; Defs.’ Mot. 4, ECF No. 45.
Although Mrs. Simpson first denied taking any
medication, the officer observed a pill bottle in her
passenger floorboard, and after subsequently
searching her vehicle, located a substantial number
of partially empty blister packs of medication. See
Pls.’ Br. Resp. 5, ECF No. 50. Mrs. Simpson also
admitted to drinking the previous night, and Ford
noticed three unopened beer cans in an ice chest in
her front passenger seat, and other opened beer cans
discarded in plain view on the back seat. Id. Ford
asked Mrs. Simpson how much of the medication in
her car she had taken, and she replied she had taken
all that was missing that morning. Id. Ford asked
Mrs. Simpson if she was trying to hurt herself, and
she replied she was not. Id. at 6.
Ford summoned City of Graham paramedics to
evaluate Mrs. Simpson, who told Ford that she did
not show any signs of suffering from a medical
problem, and that her vital signs were normal. See
Defs.’ Mot. 4-5, ECF No. 45. Ford determined he had
probable cause to arrest Mrs. Simpson for public

32a
intoxication. Pls.’ Br. Resp. 6, ECF No. 50; Defs.’
Mot. 5, ECF No. 45. Ford asked her if she wanted to
be taken to the hospital but she declined. Pls.’ Br.
Resp. 6, ECF No. 50; Defs.’ Mot. 5, ECF No. 45. Ford
arrested Mrs. Simpson and transported her to the
jail. Id. Officer Gaylon Rich (“Rich”) at the Jail
conducted Mrs. Simpson’s intake medical screening,
which did not indicate any behavior or conditions
indicative of suicide. Defs.’ Mot. 6, ECF No. 45. Mrs.
Simpson was “responsive, coherent[], and advised
Rich that she didn’t want to hurt herself.” Id. Mrs.
Simpson also indicated she was not depressed, was
not thinking about killing herself, and had never
attempted suicide. Id. She was taken to a holding
cell after completing the initial medical screening
but before finishing the booking process. Id. at 7.
After learning Mrs. Simpson was arrested, Mr.
Simpson called the Jail multiple times to warn them
that she had threatened to take her own life. Pls.’ Br.
Resp. 9, ECF No. 50. In one call, a jailer told Mr.
Simpson that the Jail would not call MHMR (mental
health services) until a person was sober. Pls.’ Br.
Supp. Resp. 9, ECF No. 50. The next morning, Mr.
Simpson called the Jail to check on Mrs. Simpson,
and he was told she died. Id. The subsequent
autopsy report notes that at her time of death, Mrs.
Simpson had “highly toxic . . . near lethal” levels of
various drugs in her system, her cause of death was
“mixed drug intoxication,” and the manner of death
was “consistent with and highly suspicious of
suicide.” Defs.’ Mot. 8, ECF No. 45 (citing Defs.’ App.
Supp. Mot. Ex. I (Autopsy Report), App 46-47, ECF
No. 46).

33a
Plaintiffs originally brought this action against
Defendants in state court for violation of: (1) 42
U.S.C. § 1983, under the Eighth and Fourteenth
Amendments of the United States Constitution; and
(2) the Texas Tort Claims Act (the “TTCA”). See
generally Compl., ECF No. 1-3. Defendants removed
the action, and the Court granted summary
judgment for Defendants on Plaintiffs’ episodic act or
omission and TTCA claims. See Order, ECF No. 20.
Plaintiffs appealed, and the Fifth Circuit affirmed
that conclusion but remanded the case for
consideration
of
Plaintiffs’
unconstitutional
conditions of confinement claim. See Opinion of
USCA, ECF No. 25.
II.

LEGAL STANDARD
A. Motion for Summary Judgment

The Court may grant summary judgment where
the pleadings and evidence show “that there is no
genuine dispute as to any material fact and the
movant is entitled to judgment as a matter of law.”
FED. R. CIV. P. 56(a). “[T]he substantive law will
identify which facts are material.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). A
genuine dispute as to any material facts exists “if the
evidence is such that a reasonable jury could return
a verdict for the nonmoving party.” Id. The movant
must inform the court of the basis of its motion and
demonstrate from the record that no genuine dispute
as to any material fact exists. See Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986).

34a
When reviewing the evidence on a motion or
summary judgment, courts must resolve all
reasonable doubts and draw all reasonable
inferences in the light most favorable to the nonmovant. See Walker v. Sears, Roebuck & Co., 853
F.2d 355, 358 (5th Cir. 1988). The court cannot
make a credibility determination in light of
conflicting evidence or competing inferences.
Anderson, 477 U.S. 255. If there appears to be some
support for disputed allegations, such that
“reasonable minds could differ as to the import of the
evidence,” the court must deny the motion. Id. at
250.
Defendants move for summary
Plaintiffs’ only remaining claim—that
was subjected to unconstitutional
confinement in violation of 42 U.S.C.
Mot., ECF No. 45.
B.

judgment on
Mrs. Simpson
conditions of
§ 1983. Defs.’

Section 1983 Unconstitutional
Conditions of Confinement

A section 1983 conditions of confinement claim
allows pretrial detainees to sue based on the theory
that the conditions of their confinement are
constitutionally inadequate. See Duvall v. Dallas
Cty., 631 F.3d 203, 207 (5th Cir. 2011). To prevail on
a conditions of confinement claim, Plaintiffs must
plead facts to establish three elements: “(1) ‘a rule or
restriction . . . or the existence of an identifiable
intended condition or practice . . . [or] that the jail
official’s acts or omissions were sufficiently extended
or pervasive’; (2) which was not reasonably related to
a legitimate governmental objective; and (3) which

35a
caused the violation of ‘a detainee’s’ constitutional
rights.” Montano v. Orange Cty., 842 F.3d 865, 874
(5th Cir. 2016). A “pretrial detainee . . . [has] a
clearly established [Fourteenth Amendment] . . .
right not to be denied, by deliberate indifference,
attention to ‘her’ serious medical needs.” Garza v.
City of Donna, 2017 U.S. Dist. LEXIS 206958 at *15
(S.D. Tex. 2017) (quoting Estate of Pollard v. Hood
Cty., Tex., 579 Fed. Appx. 260, 265 (5th Cir. 204)).
Defendants argue that Plaintiffs have not
provided evidence of constitutionally inadequate
conditions of confinement at the Jail. Defs.’ Mot. 1318, ECF No. 45. Plaintiffs assert that their evidence
creates at least a genuine issue of material fact
about whether Young County exercised de facto
policies sufficient to satisfy the first prong of the
conditions of confinement test. Pls.’ Resp. 18, ECF
No. 50. Defendants reply that Plaintiffs do not plead
facts to establish the de facto policy element and,
alternatively, Plaintiffs cannot show the alleged de
facto policies caused a violation of Plaintiffs’
constitutional rights. See Defs.’ Reply, ECF No. 53.
1. Sufficiently Extended or Pervasive Policy
A condition or practice sufficient to satisfy the
first element of a conditions of confinement claim
can be established by either a formal written policy
or a de facto policy. See Montano, 842 F.3d at 875.
Fifth Circuit precedent holds that “a condition may
reflect . . . [a] de facto policy, as evidence by a
pattern of acts or omissions ‘sufficiently extended or
pervasive, or otherwise typical of extended or
pervasive misconduct by [‘jail’ officials, to prove an

36a
intended condition or practice.”’ Shepherd v. Dallas
Cty., 591 F.3d 445, 452 (5th Cir. 2009) (quoting Hare
v. City of Corinth, 74 F.3d 633, 645 (5th Cir. 1996) (en
banc)); see also Montano, 842 F.3d at 875. And
“evidence showing only ‘isolated instances of
inadequate medical care’ . . . would be insufficient’ to
show a de facto policy. Shepherd, 591 F.3d at 455
(quoting Hare, 74 F.3d at 644-45). Rather, as
mentioned above, “a detainee challenging jail
conditions must demonstrate a pervasive pattern of
serious deficiencies in providing for his basic human
needs; any lesser showing cannot prove punishment
in violation of the detainee’s due process rights.” Id.
at 454 (emphasis added); Notably, the Court
examines the evidence “for policy implementation,
not policy outcome.” Montano, 842 F.3d at 875.
2. Reasonable Relation to Legitimate
Government Interest
If a pattern of acts or omissions is sufficiently
pervasive to constitute a de facto policy, the Court
must then decide whether the policy is imposed for
the purpose of punishment or whether it is but an
incident of some other legitimate governmental
purpose. See Bell v. Wolfish, 441 U.S. 520, 538 (1979)
(citing Flemming v. Nestor, 363 U.S. 603, 613-617
(1960)). In Bell, the Supreme Court held that “if a
particular condition or restriction of pretrial
detention is reasonably related to a legitimate
governmental objective, it does not without more,
amount to ‘punishment.’” Id. at 539. But “if a
restriction or condition is not reasonably related to a
legitimate goal—if it is arbitrary or purposeless—a
court permissibly may infer that the purpose of the

37a
governmental
action
punishment.” Id.

is

‘unconstitutional]

3. Causation
If a condition of confinement is not reasonably
related to a legitimate governmental objective,
Plaintiffs must show that the de facto policy caused
a violation of the detainee’s constitutional rights.
This
prong
derives
from
the
Fourteenth
Amendment—specifically, from the guarantee that
citizens will not be punished before adjudication of
guilt. See Bell, 441 U.S. 535. To establish causation,
Plaintiffs much show by a preponderance of the
evidence that the condition is “a substantial factor in
bringing about the harm and without which the
harm would not have occurred.” Montano, 842 F.3d
at 882.
4. Violation of a Constitutional Right
Some complained of conditions implicate a
constitutional right while others do not. For
instance, the Fifth Circuit has held that there is no
constitutional “right to psychological screening” for
pretrial detainees. See Burns v. City of Galveston,
905 F.2d 100, 104 (5th Cir. 1990); see also Garza v.
City of Donna, 2017 U.S. Dist. LEXIS 106958 at *43
(S.D. Tex. 2017). Further, the Fifth Circuit has held
that “the failure to train custodial officials in
screening procedures to detect latent suicidal
tendencies does not rise to the level of constitutional
violation.” See Evans v. City of Marlin, 986 F.2d 104,
108 (5th Cir. 1993); see also Garza, 2017 U.S. Dist.
LEXIS 206958 at *43.

38a
III.

ANALYSIS

In the Amended complaint, Plaintiffs assert that
Defendants
maintained
twelve
different
unconstitutional
system-wide
jail
conditions,
customs, or practices that Plaintiffs contend
“resulted in an extreme deprivation of the minimal
measures of life’s necessities.” The allegations are as
follows:
 Defendants had no actual procedure for
assessment or determination of the suicide
risk of pretrial detainees, despite the
existence of an assessment form, as the de
facto policy was not to complete the forms.
 Defendants systematically ignored the written
policies for observation of suicidal pretrial
detainees.
 Defendants, while having a written policy that
pretrial detainees deemed a suicide risk be
placed in cells that would allow for maximum
visual observation at all times, systematically
disregarded this policy.
 Defendants’ systemic failure to complete the
required intake screening form resulted in
the misclassification and misplacement of
highly-intoxicated pretrial detainees in cells
that lacked maximum visual observation by
Jail staff.

39a
 Defendants had no enforced policy for the
proper monitoring of highly-intoxicated
pretrial detainees.
 Defendants had a longstanding policy, custom,
and practice of detaining highly-intoxicated
detainees without constitutionally adequate
visual surveillance or audio monitoring,
which did not allow for a maximum visual
observation at all times by Jail staff.
 Defendants’ policy and custom was to house
highly-intoxicated pretrial detainees in cells
that lacked adequate audio and visual
surveillance, while only completing “cell
checks” once every twenty-five minutes.
Instead of actually entering the cells to
closely monitor the detainees’ health and
safety, the jail staff was allowed to use a
wand system whereby they could record a
“cell check” without ever actually entering
the cell.
 Defendants had no enforced policy to comply
with the Texas Commission on Jail
Standards (“TCJS”) requirements related to
the Continuity of Care Query (“CCQ”) system,
including its required training, use, and
required follow-up—resulting in a failure to
train.
 Defendants, by policy, allowed untrained
personnel without proper jailer certificates
and training to monitor inmates with
documented mental and medical issues.

40a
 Defendants did not adequately train staff on
how to properly recognize inmates at risk for
overdose, suicide, or how to monitor and keep
safe inmates from overdose or suicide in
violation of 37 TEX. ADMIN. CODE, part 9,
Section 273.5(a)(1).
 Defendants had no alcohol or detox policy for
persons with documented coherency issues,
documented drug ingestion, and documented
suicide tendencies, such as Mrs. Simpson.
 Despite a written policy, Defendants failed to
have an established procedure for visual faceto-face observation of all inmates by jailers, in
violation of 37 TEX. ADMIN. CODE, part 9,
Section 273.5(a)(5).
See Am. Compl., ECF No. 34.
A.

De Facto Policies

In their motion for summary judgment,
Defendants argue that they never adopted—
implicitly or otherwise—the de facto policies alleged
by Plaintiffs, and that Plaintiffs cannot provide
evidence sufficient to create a genuine issue of
material fact about whether any of the alleged
conditions of confinement were unconstitutional.
See Defs.’ Mot., ECF No. 45. Plaintiffs respond that
fact issues exist as to whether Defendant maintained
unconstitutional conditions of confinement that

41a
caused Mrs. Simpson’s death 1 and point to a
declaration by a medical doctor who states that “if
given appropriate medical care prior to her
deterioration into cardiac arrest she would have
survived this mixed-drug intoxication.” Pls. Br. Resp.
39-50, ECF No. 50; Pls.’ App. Supp. Resp.
(Declaration of Robert Bassett), App. 352, ECF No.
51. Each assertion in the amended complaint
appears to fit into one of three categories of de facto
policies Plaintiffs allege were in place at the Jail—
failure to properly train officers, failure to properly
observe intoxicated pre-trail detainees, or failure to
properly complete forms and identify suicidal
tendencies at intake. The Court will examine each of
the three categories of alleged de facto policies in
turn. For the reasons set forth below, the court finds
that Plaintiffs cannot satisfy the elements of their
claim as a matter of law.
1. Failure to Train Policy
In the Amended Complaint, Plaintiffs argue that
the Defendants maintained a de facto policy of
In the Response, Plaintiffs allege a number of contested issues
of fact. See Pls.’ Br. Resp. 39, ECF No. 50. But “the mere
existence of some alleged factual dispute between the parties
will not defeat an otherwise properly supported motion for
summary judgment; the requirement is that there be no
genuine issue of material fact” and “the substantive law will
identify which facts are material. Only disputes over facts that
might affect the outcome of the suit under the governing law
will properly preclude the entry of summary judgment.”
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 247-248 (1986).
Accordingly, the Court will examine those factual disputes—if
any—which are material to Plaintiff’s conditions of confinement
claim.
1

42a
failing to train its jailers by (1) not training
employees to comply with TCJS requirements
related to the CCQ system; (2) allowing untrained
personnel without proper certification2 and training
to monitor inmates with documented mental and
medical issues; (3) failing to adequately train staff on
how to properly recognize inmates at risk for
overdose and suicide—or to monitor and keep safe
inmates from overdose or suicide; and (4) failing to
train employees on alcohol or detox policies for
persons with documented coherency issues,
documented drug ingestion, and documented suicidal
tendencies. See Am. Compl., ECF No. 34. Defendants
argue Plaintiffs cannot create a genuine issue of
material fact as to the existence of a de facto policy
of failing to adequate train employees to handle
suicidal or intoxicated detainees because Sheriff
Walls adequately trained his staff on those issues
and any instance of failing to train was not
pervasive. Defs.’ Mot. 18, ECF No. 45. Plaintiffs
respond that Defendants’’ de facto policy allowed
jailers to place detainees in holding cells without
reviewing their CCQ and the jailers were not
adequately trained to make medical or mental
health care assessments.3 Pls.’ Br. Resp. 23-27, ECF
Plaintiffs do not explain their “proper certification” argument
in the complaint and do not address the issue at all in the
Response. Instead, Plaintiffs focus on their “failure to train”
argument. Additionally, the evidence provided in Plaintiffs’
Appendix does not indicate jailers lacked required
certifications. See e.g., Pls.’ App. Supp. Resp. (Annual Jail
Report), App. 282, ECF No. 51 (“reviewed all 19 officer
TCLEOSE certification records”).
3 The Court examines this claim under the conditions of
confinement theory but notes that the Fifth Circuit generally
characterizes failure to train claims as episodic acts or
2

43a
No. 50. Defendants reply that Young County jailers
were trained on intake procedures, that Plaintiffs
present a generalized claim and have not shown how
inadequate training was pervasive, or even affected
any other similarly situation detainees. Defs.’ Reply
14-15, ECF No. 53.
In Duvall, the Fifth Circuit examined whether a
jail adopted a pervasive unconstitutional custom or
policy of implicitly allowing a MRSA infection to run
rampant in the facility. See Duvall, 631 F.3d at 203.
It noted that the evidence “was amply sufficient to
prove that the violations were serious, extensive and
extended, and that they were much more than de
minimis.” Id. at 208. In that case, the evidence
showed that the jail’s incidence of MRSA was twenty
times higher than comparable jails, and the county
was aware of the situation for at least three years.
Id. While factually distinct, the legal standard
espoused in Duvall applies to the case at hand—
failing to act can be evidence of a de facto policy if
sufficiently pervasive.
Here, Plaintiffs assert that Defendants had a
pervasive and unconstitutional policy of failing to
train employees. But Plaintiffs fail to identify
evidence showing that the failure to train on these
subjects was pervasive.4 In fact, evidence provided
omissions claims. See Johnson v. Johnson Cty., 2006 WL
1722570, at *4 n.4 (N.D. Tex. 2006) (Fitzwater, J.) (“[Plaintiff],
too, includes a training-based claim. This claim is treated as an ‘episodic
act or omission’ claim under circuit precedent.”) (internal citations
omitted) (collecting cases).
4
Plaintiffs point to a declaration including a jail expert’s
opinion on the Jail’s policies and rely primarily on a
generalized policy argument that jailers received inadequate

44a
by Plaintiffs shows the opposite—that Young county
policies mandated training, that it did provide
training on intake procedures, that jailers were
required to complete relevant training courses, that
intoxicated inmates were examined on a case-by-case
basis, and that jailers were trained to complete
suicide-risk screenings upon intake.5 Plaintiff allege
factually specific violations of official policies and
label those violations a de factor policy—when in fact
they simply point out episodic acts or omissions. Cf.
Estate of Henson v. Wichita County, Tex., 795 F.3d
456, 466 (5th Cir. 2015) (“Plaintiff’s evidence of a de
facto ‘policy’ . . . [came] mostly from [one] previous
case,” and that evidence was not sufficient to show
an unconstitutional policy). While it is unfortunate
that County employees violated various policies, the
evidence does not show these individual violations
derive from a pervasive failure to train. Accordingly,
the Court finds that Defendants did not exercise a de
facto policy of failing to train employees and the
Defendants’’ motion for summary judgment on the
failure to train claims should be and is hereby
GRANTED.6
medical training—rather than explaining how Defendants
pervasively failed to train jailers on the specific issues
identified in the amended complaint. See Pls.’ Br. Resp., ECF
No. 50.
5 See Pls.’App. Supp. Resp. (Deposition of Gaylon Rich), App.
131-132, ECF No. 51; Id. at App. 164; Id. (Deposition of Bobby
Joe Cook), at App. 185; Id. at App. 179; Id. (Deposition of
Michael Burt) at App. 193-194.
6 Because the Court finds there is no pervasive pattern of
failing to train, it does not reach the causation element which is
necessary to prove an unconstitutional condition of
confinement. But see Grandstaff v. City of Borger, 767 F.2d 161,
169 (5th Cir. 1985) (“An ‘inadequate’ training program alone is

45a

2. Failure to Observe Detainees Policy
In the Amended Complaint, Plaintiffs argue that
Defendant maintained a de facto policy of failing to
observe inmates by (1) systematically ignoring the
written policies for observation of pretrial detainees
posing a suicide risk; (2) not placing pretrial
detainees deemed a suicide risk in the cells that
would allow for maximum visual observation of the
safety and welfare of those detainees at all times—
despite maintaining a written policy to do so; (3)
failing to enforce a policy for the proper monitoring
of highly-intoxicated pretrial detainees; (4) detaining
highly-intoxicated detainees without constitutionally
adequate visual surveillance or audio monitoring; (5)
using an electronic wand system to complete cell
checks instead of actually entering cells to monitor
the detainees’ health and safety; and (6) failing to
establish a procedure for visual, face-to-face
observation of all inmates by jailers. See Am. Compl.,
ECF No. 34. Defendants argue Plaintiffs cannot
provide evidence of a de factor policy of failing to
create or enforce a policy for observing suicidal or
intoxicated detainees. Defs.’ Mot. 17, ECF No. 45.
Defendants state the evidence shows the county
followed their health services plan—detainee cells
are physically checked each half-hour and cells are
viewable by camera at all times. Id.
not ordinarily the moving force between an injured plaintiff’s
harm. Because the police officer [or jailer] who injures the
plaintiff does not rely upon inadequate training as tacit
approval of his conduct. It is not enough that the city could, but
does not, reduce the risk of harm to the plaintiff.”

46a
Plaintiffs respond that individual TCJS violation
citations provide evidence that Young County has a
de facto policy of not regularly conducting cell
checks. Pls.’ Br. Resp. 34, ECF No. 50. Plaintiffs note
physical checks are particularly important at the
Jail because the windows on female detainee cells
were kept closed to prevent male detainees from
seeing female detainees. Id. at 33. Defendants reply
that Plaintiffs do not provide evidence that
observation was pervasively deficient in these types
of instances, that the inspection reports relied on by
Plaintiffs are both random and inconclusive, that
video cameras are only one means used to observe
the cells, and that Plaintiffs rely on inconsistencies
with certain documentary reports generated by an
electronic wand accountability system—rather than
evidence that officers pervasively failed to personally
observe inmates. Defs.’ Reply 12-14, ECF No. 53.
The Fifth Circuit remanded this case and
directed the Court to consider “whether there is any
genuine issue of material fact that Mrs. Simpson
was subjected to the County’s unconstitutional
conditions of confinement.” Sanchez v. Young Cty.,
866 F.3d 274, 279 (5th Cir. 2017). A ‘“condition of
confinement’ case is a ‘constitutional attack on
general conditions, practices, rules, or restrictions of
pretrial confinement.” Scott v. Moore, 114 F.3d 51, 53
(5th Cir. 1997). And Shepherd clarified that “more
often, however, a plaintiff’s claim, properly
characterized, faults specific jail officials for their
acts or omissions because the plaintiff cannot
establish the existence of an officially sanctioned
unlawful condition.” Shepherd, 591 F.3d at 452. “In
these cases, ‘an actor usually is interposed between

47a
the detainee and the municipality, such that the
detainee complains first of a particular act of, or
omissions by, the actor and then points derivatively
to a policy, custom, or rule (or lack thereof) of the
municipality that permitted or caused the act or
omission.’” Id. at 452 (citing Scott, 114 F.3d at 53).
Having reviewed the record and considered
Plaintiffs’ arguments, the Court finds that Plaintiffs
do not raise a genuine issue of material fact that
Defendants employed an unofficial custom or
practice—much less pervasive acts—of failing to
monitor detainee.7 Plaintiffs do not provide evidence
The evidence plainly contradicts Plaintiffs’ characterizations
in a number of ways. First, jailers conducting cell checks were
expected to look through cell windows during those checks. See
Pls.’ App. Sup. Resp. (Deposition of Gaylon Rich), App. 154,
ECF No. 51; Id. (Deposition of Bobby Joe Cook), at App. 176177. Second, Defendants had a policy of conducting routine cell
checks, and also used video cameras. Id. Third, Defendants
had a special policy for observing detainees identified as suicide
risks. Id. (Deposition of Michael Burt), at App. 204. Fourth, the
fact that the County employed a wand system to document cell
checks is not proof that they did not complete proper cell
checks. And discrepancies between wand system data and
actual visual surveillance merely highlight jailer-specific acts
or omissions—not a de facto policy. Finally, Plaintiffs failed to
provide evidence that Defendants pervasively failed to provide
face-to-face observation of inmates. Plaintiffs also failed to
provide evidence of any other detainees who were subject to
allegedly insufficient observation to aid their contention that
this was a pervasive problem. See Estate of Henson, 795 F.3d at
466 (The evidence “falls short of proving conduct so pervasive
and typical as to constitute an intended condition or practice.”)
(emphasis added); Cf. Montano, 842 F.3d at 876 (“the evidence
was sufficient for a reasonable juror to infer a de facto policy
that every seemingly detoxifying detainee was left in the
bubble without emergency medical care” and “[g]iven the
7

48a
of other detainees that jailers failed to observe—
which would be the first step to show such a practice
is pervasive. Rather, Plaintiffs assert specific factual
claims about the night Mrs. Simpson passed away
and subsequent TCJS citations. Each of those claims
involve a failure or failures by an interposed actor—
rather than evidence of either an official or de facto
policy—and are more accurately characterized as
episodic act or omissions arguments. Accordingly,
the Court finds Defendants’ motion for summary
judgment on the failure to observe claims should be
and is hereby GRANTED.
3. Failure to Complete Forms and Identify
Suicidal Tendencies Upon Intake Policy
In the Amended Complaint, Plaintiffs argue that
Defendants maintained a de facto policy of failing to
properly complete intake procedures and identify
suicide risks by (1) not ensuring intake assessment
form were properly used or filled out; and (2)
misclassifying and misplacing highly intoxicated
pretrial detainees in cells that lacked maximum
visual observation at all times. See Am. Compl., ECF
No. 34. Defendants argue Plaintiffs cannot provide
sufficient evidence to show a pervasive pattern of
failing to adhere to written suicide policies. Defs.’
Mot. 13-14, ECF No. 45. Plaintiffs respond that (1)
testimony from jail officials establishes that Young
County had a routine custom of placing intoxicated
detainees in a detox holding cell to let them “sleep it
off” before completing relevant intake forms or
striking uniformity of the jail employees’ testimony, further
evidence was not required for a reasonable juror to infer a de
facto policy for conditions or practices.” (emphasis added).

49a
identifying possible suicide risks; and (2) jailers only
consider the self-reporting questions in the suicidescreening form—not outside information. Pls.’ Br.
Resp. 22, 29, ECF No. 50. Defendants reply that
Plaintiffs produce no evidence of any other
intoxicated detainees being automatically placed into
a holding cell before completing the book in process,
that testimony confirms detainees are assessed on a
case-by-case basis, and that jailers may properly rely
on a detainee’s responses to the suicide-screening
questionnaire upon initial intake. Defs.’ Reply 407,
ECF No. 53.
In Shepherd, the Fifth Circuit noted that
“isolated examples of illness, injury, or even death,
standing alone, cannot prove that conditions of
confinement are constitutionally inadequate.”
Shepherd, 591 F.3d at 454. In Montano—while
affirming a jury’s verdict—the Circuit clarified that
when there is “striking uniformity” in jail employees’
testimony “further evidence [is] not required for a
reasonable juror to infer a de factor policy for
conditions or practices.” Montano, 842 F.3d at 876.
The Circuit stated that “[j]urors heard consistent
testimony that a given protocol was followed for
every similarly-situated detainee.” Id. (emphasis
added). Here, however, Plaintiffs have not provided
any uniform evidence of intoxicated detainees being
automatically placed in holding cells before
completing book-in to permit a conclusion that this
alleged practice was pervasive. 8 Not only do the
Plaintiffs point to portions of testimony about general intake
procedures where one jailer said CCQ’s should be reviewed at
book-in if received in time, two jailers said that intoxicated
detainees were put in a holding cell after initial book-in, and
8

50a
jailers’ testimony undercut Plaintiffs’ claims, but the
generalized testimony of the three jailers Plaintiffs
rely on hardly provides striking uniformity about jail
protocol for every similarly-situated intoxicated
detainee.
The testimony of the jailers was strikingly
consistent however, on one issue—jailers may have
pervasively failed to timely complete suicide
screenings and medical intake forms when
intoxicated detainees first arrived at the Jail. The
Court finds that Plaintiffs have raised a genuine
issue of material fact as to whether Defendants had
a de facto policy of failing to complete intake forms
before placing intoxicated pre-trial detainees in
holding cells. Accordingly, the Court will consider
whether failing to complete these forms was causally
linked to unconstitutional denial of adequate
medical care.
one jailer said that officer observations could be completed after
initial book-in. Pls.’ App. Supp. Resp. (Deposition of Gaylon
Rich), App. 150, ECF No. 51; Id. at 167; Id. (Deposition of
Bobby Joe Cook), at App. 179-180. But the testifying jailers also
stated that inmates were evaluated on a case-by-case basis,
and even testified that violent inmates are placed in a different
cell than the one Diana Simpson was placed in. See Pls.’ App.
Sup. Resp. (Deposition of Bobby Joe Cook), App. 179, ECF No.
51; Id. (deposition of Michael Burt), at App. 192; (Deposition of
Bobby Joe Cook), at App. 177. They further testified that a
suicide screening is completed before a detainee is placed in a
holding cell, and that a decision to contact MHMR at intake is
case-by-case but that MHMR refuses to come to the Jail to see
intoxicated detainees. Id. (Deposition of bobby Joe Cook) at
app. 179. The jailers also testified that medical forms were
generally completed later during the book-in process than the
suicide screening—after a detainee had time to regain sobriety.
Id. (Deposition of Michael Burt), at App. 194.

51a
B.

Constitutional Violation and Causation

As stated above, to prevail on a conditions of
confinement claim, Plaintiffs must show it “caused
the violation of [a detainee’s] constitutional rights.”
Montano, 842 F.3d at 874 (emphasis added).
Plaintiffs allege each deficient condition of
confinement violated Mrs. Simpson’s constitutional
rights—denial of medical care.9 See Pls.’ Br. Resp.,
ECF No. 50. Defendants argue that Plaintiffs cannot
provide evidence creating a genuine issue of material
fact as to whether any alleged unconstitutional
condition of confinement caused Mrs. Simpson to be
deprived of constitutionally required medical care.
Defs.’ Mot. 19, ECF No. 45. Plaintiffs respond that
the evidence establishes Mrs. Simpson required
serious care from the Jail upon intake and
throughout her custody because she could not act on
her own after being detained. Defendants reply that
Plaintiffs only provide evidence of causal links
between the acts or omissions of individual jailers
and any denial of medical care—not between the
alleged de facto policies and denial of medical care.
Defs.’ Reply 16-25, ECF No. 53.

Plaintiffs also generally respond that Defendants had a de
facto policy of denying medical care to intoxicated detainees but
do not point to evidence of intoxicated detainees, apart from
Mrs. Simpson, being denied medical care. Further, jailers
testified that the Jail does not accept intoxicated detainees
when they struggle to walk and blood alcohol content is tested
at a certain level—unless they are first taken to a hospital for
care. Pls.’ App. Supp. Resp. (Deposition of Gaylon Rich), App.
140, ECF No. 51; Id. (Deposition of Bobby Joe Cook), at App.
175.
9

52a
The Fifth Circuit’s prior opinion provided that
“regardless whether there was a fact issue that
failure of jailers to ‘complete’ Mrs. Simpson’s intake
screening questionnaire and to request a CCQ
reflected County ‘policies or customs,’ these are
matters of file documentation. There is no proof that
any such alleged deficiencies in jail procedures were
causally linked to Mrs. Simpson’s death under the
circumstances of this case.” Sanchez, 866 F.3d at
280. The evidence does not raise a fact issue
indicating that failure to complete the intakescreening form itself denied Mrs. Simpson medical
care. Nothing about failing to complete that form—
when examining the facts of this case—was causally
linked to Defendants’ failure to provide Mrs.
Simpson requisite medical care.10 Not to mention,
Mrs.
Simpson’s
“intake
questionnaire
was
substantially completed, in any event.” Id. As tragic
Plaintiffs’ jail expert provides that “not completing the
required medical/mental health and suicide screening risk form
resulted in critical information about Mrs. Simpson’s condition
to be lost.” Pls.’App. Supp. Resp. (report of Jail Operations
Expert Jeff Eiser) App. 300, ECF No. 51. Plaintiffs’ medical
expert provides that “if given appropriate medical care prior to
her deterioration into cardiac arrest she would have survived
this mixed-drug intoxication.” Id. (Medical Expert Record
Review of Robert Bassett), at App. 352. But neither Plaintiffs
nor the experts address how any of the “critical information”
left off the form was causally linked to a violation of Mrs.
Simpson’s constitutional rights—for example, how competing
that portion of the form would have led to medical care, or how
including any missing information could have prevented harm
to Mrs. Simpson. Essentially, both Plaintiffs and the experts
fail to explain how not completing the bottom portion of the
form itself was “a substantial factor in bringing about the harm
and without which the harm would not have occurred.”
Montano, 842 F.3d a5 882 (emphasis added).
10

53a
as the facts may be, there is no evidence that
completing the bottom-quarter of the screening form
alone—the section reserved for a jailer’s medical
observations—would have changed the facts that
Mrs. Simpson ingested alcohol and pills, denied
multiple offers of medical care, told jailers she was
not suicidal, and appeared to those jailers to be
merely intoxicated. For the reasons stated above, the
court finds that Defendants’ motion for summary
judgment on the failure to complete forms claim
should be and is hereby GRANTED.
IV.

CONCLUSION

The Fifth Circuit has somberly noted, “[t]he
Constitution does not require that officers always
take arrestees suspected to be under the influence of
drugs or alcohol, or reported by relatives to be at
risk, to a hospital against their wishes.” Id. at 281.
That is what has occurred here. Accordingly, based
on the foregoing Defendants’ Motion for Summary
Judgment (ECF No. 44) is GRANTED. 11 A Final
Judgment will be issued separately.
SO ORDERED on this 22nd day of January,
2019.

The Court disposed of all claims and accordingly, does not
reach a discussion of wrongful death or survivorship damages.
But see Montano, 842 F.3d at 882 (wherein the Fifth Circuit
clarified that a causal link is required between an
unconstitutional condition of confinement and the detainee’s
death to recover wrongful death damages. Notably, a causal
link can exist in a wrongful death case if a county
unconstitutionally denies medical care as a result of a de facto
policy—but only if that denial of care causes detainee’s death).
11

54a
/s/ Reed O’Connor
Reed O’Connor
UNITED STATES DISTRICT JUDGE

